<html>
<title> - THE MEANING OF MARJAH</title>
<body><pre>[Senate Hearing 111-624]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-624

                         THE MEANING OF MARJAH

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html






                  U.S. GOVERNMENT PRINTING OFFICE
61-586 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        










                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Nicholson, BG John, Director, Pakistan-Afghanistan Coordination 
  Cell, Joint Staff, Department of Defense, Washington, DC.......     3
    Prepared joint statement of BG John Nicholson and David 
      Samuel Sedney, Deputy Assistant Secretary of Defense for 
      Afghanistan, Pakistan and Central Asia.....................     6
Ruggiero, Frank, Senior Civilian Representative, Regional 
  Command-South, Department of State, Kandahar, Afghanistan......     9
    Prepared statement...........................................    10

       Additional Questions and Answers Submitted for the Record

Responses of BG John Nicholson to questions submitted by:
    Senator Robert P. Casey, Jr..................................    41
    Senator John Barrasso........................................    43

                                 (iii)



 
                         THE MEANING OF MARJAH

                              ----------                              


                         THURSDAY, MAY 6, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Lugar, Kaufman, Shaheen, Feingold, 
Cardin, and Risch.

             OPENING STATEMENT OF HON. JOHN KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you 
very, very much for coming today. I am particularly grateful to 
our witnesses who have traveled considerable distance at one 
time or another with respect to both this hearing and the 
experience that they bring to the table.
    Last year, as we all know, the administration faced some 
very tough choices with respect to Afghanistan and Pakistan, 
and we explored all those options in considerable depth here 
within the committee; and today we want to try to exercise the 
oversight obligations of the committee and the Congress to 
examine the impact of those decisions. How have those decisions 
turned out? Where are we today, and where are we going?
    This is the first congressional hearing on our mission in 
Marjah. Before our offensive began there in February, this 
small village in Southern Afghanistan was unknown to most of 
the outside world and perhaps even to an awful lot of Afghans. 
Today, it has become the leading edge of the administration's 
new strategy; though by the administration's own 
acknowledgement, it's really a testing ground and a sort of 
start to what we all understand is a larger effort that will 
ultimately take place in Kandahar itself.
    Marjah is the site of the largest coalition offensive since 
2001, the first major combat operation since the President 
unveiled the new strategy in December, and that's why the 
meaning of our efforts there merits some examination.
    Today, Marjah does not appear to be a turning point in the 
overall mission. That is not to suggest it was absolutely meant 
to be. But it is not. Although the outcome in military terms 
was never in doubt, our Marines and their NATO and Afghan 
partners performed heroically and we honor them and thank them 
profoundly for the sacrifices they made and for the 
extraordinary quality of their service.
    Marjah also is not a great Afghan city, like Kabul, Heart, 
or Kandahar; but Marjah and neighboring Nadali do have 
strategic and symbolic importance. Marjah was the last Taliban 
stronghold in the Central Helmand River Valley and it was the 
poppy production hub of Afghanistan and the world. So 
establishing long-term security there and developing a 
legitimate economy in Helmand province would significantly 
undercut our enemies and help our overall effort.
    I think it's fair to say, and I think our witnesses will 
say--incidentally we're not going to go into any in-depth 
discussion today about Kandahar, sort of off limits basically 
for all the obvious reasons that clearly the challenges in a 
big city like Kandahar are going to differ dramatically from 
the challenges of Marjah. But, nevertheless, what we did face 
in Marjah represents something of strategic and symbolic 
importance.
    First, it was the last Taliban stronghold in the Central 
Helmand River Valley and, as I mentioned, the poppy production 
hub. So establishing a long-term security capacity there and 
developing a legitimate economy is critical.
    We are looking now for better cooperation within our 
integrated civilian-military effort, and between the coalition 
forces and all levels of the Afghan Government; and those are 
going to be vital as the mission moves beyond Marjah.
    It is encouraging that Afghan security forces and Gov. 
Gulab Mangal of Helmand province were involved in the planning 
and execution of that offensive; and soon after the major 
fighting ended, President Hamid Karzai visited Marjah and 
signaled his commitment to a new beginning there.
    So let's look quickly at, sort of, at least from our 
perspective, what this new start may have brought us. There are 
indications that we are making progress. United States forces 
have embarked on a robust effort to help Afghans clear rubble 
from schools, clean canals, repair markets, build bridges, and 
compensate families who lost members as a result of combat.
    On the civilian side, we are starting to put locals to 
work. We're providing agriculture vouchers to wean farmers from 
poppy production and, though the officials there continue to 
face threats from the Taliban and those threats do constrain 
their movements, with our help, a local Afghan Government is in 
place in Marjah for the first time in years.
    So we are finally changing the way we do business, but--and 
I think our panel would agree with this--unless these changes 
resonate with Afghans, they're not going to be enough. The 
ultimate measure of our success is going to be whether we can 
win the trust of the Afghan people and transfer security and 
governance to them.
    Our challenge was never just to clear the territory. It has 
always been to hold it, to build it, and then to transfer it. I 
think transfer is probably the single most critical element of 
all: transferring that territory, its control and management 
back to our Afghan partners.
    Now, on the negative side, unfortunately, the initial word 
from hundreds of villagers in Marjah suggests the full measure 
of our challenge. A recent survey conducted by the 
International Council on Security and Development showed that a 
vast majority of the villagers felt negatively about foreign 
troops and felt that more young Afghans had joined the Taliban 
over the last year.
    Worse still, were the reasons that they had signed up with 
the Taliban. They said they joined because they had no jobs, 
because they had no money to get married or to buy land, and 
because they had no other future.
    In short, the coalition and their own government, they 
felt, had not provided alternatives. These concerns have to 
carry weight. Addressing the discontent of the Afghan people is 
a key to improving our chances of defeating the Taliban and its 
affiliates, or at least, if not defeating it--I always want to 
be careful about how we define our goals here--at least to 
empowering the Government of Afghanistan, local and national, 
to be able to carry the weight of this struggle.
    I look forward, therefore, to discussing these and other 
issues with President Karzai during his visit to Washington 
next week. It's clear we still have a formidable task ahead of 
us in Afghanistan. We are very fortunate to have with us as 
witnesses who can speak directly to that; folks who have had a 
lot of on-the-ground, firsthand, lengthy, in-depth experience 
in this effort.
    Frank Ruggiero is the top American civilian official in 
southern Afghanistan where he coordinates our governance, 
development, and reconstruction projects, and I've just learned 
will be coming soon to Washington to serve as the Deputy to 
Ambassador Holbrooke.
    Mr. Ruggiero, I especially want to thank you for coming 
here today to do this and I know you're going back afterward, 
and we are enormously grateful to you for that and the work you 
have done there.
    We're also pleased to welcome BG John Nicholson, the 
Director of the Pakistan-Afghanistan Coordination Cell for the 
Joint Chiefs of Staff. Until just a few months ago, General 
Nicholson was helping to lead the military campaign in southern 
Afghanistan.
    I had the pleasure of meeting him there, I appreciate the 
insightful briefing that he gave us last year on our flight to 
Zabul, and I look forward to hearing his thoughts again today. 
And also joining them at the table is David Sedney, the Deputy 
Assistant Secretary of Defense for Afghanistan and Pakistan.
    So again, I remind folks we are not going to be examining 
this morning any of the details of the upcoming efforts in 
Kandahar, but I think there is a lot of meat to digest, 
notwithstanding that. So we thank you for coming here.
    General Nicholson first and then Ambassador Ruggiero and 
Mr. Sedney.

STATEMENT OF BG JOHN NICHOLSON, DIRECTOR, PAKISTAN-AFGHANISTAN 
    COORDINATION CELL, JOINT STAFF, DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    General Nicholson. Well, thank you, Senator Kerry, and 
thanks for the opportunity to come here and discuss these 
important operations in southern Afghanistan.
    I also want to thank you, sir, for your continued support 
to our service men and women and our civilian partners in 
Afghanistan. They're doing a very tough job in the most 
difficult conditions and thank you for your personal visits to 
them, to visit them in that environment.
    And although I've been back, as you mentioned, for a few 
months, I appreciate the opportunity to appear here with my 
former civilian counterpart from Regional Command-South, Frank 
Ruggiero.
    When I arrived in RC-South in October 2008, there were a 
total of 10 U.S. Government civilians in the entire southern 
region. There are now over a hundred and that number is 
growing. More importantly, Frank represents the creation of the 
Senior Civilian Rep position which has enabled a greater unity 
of effort between the civil and military efforts, so greater 
integration in the execution of our campaign in RC-South.
    So what I'd like to do is just make a few opening comments 
on the context of Marjah in terms of its importance within 
Helmand, within the southern region, and then within 
Afghanistan overall, and then also to talk a little bit about 
counterinsurgency from a practitioner's perspective which will 
also help our understanding of what's happening in Central 
Helmand.
    So when we look at it in the context of those areas, as you 
know, sir, most of our effort in the ISAF Campaign is focused 
in the eastern and southern regions of the country where most 
of the support for the insurgency exists.
    In the southern region, our allies have done a tremendous 
amount of heavy lifting for the coalitions, 17 different 
nations. Some of those nations have suffered a higher 
percentage of casualties than the United States. Given that 
this is a population-focused Coin Campaign, when we look at the 
south then, we look at two primary areas which you mentioned, 
sir, the Kandahar, Greater Kandahar Area, and Central Helmand, 
and by securing the population in those two areas, we in fact 
secure the majority of the population in southern Afghanistan.
    Southern Afghanistan, by securing that population and 
helping to connect them to their government and generate 
support for the government from that population, we in fact 
then get at the majority of the Pashtun Tribal Areas which is 
instrumental to the overall solution in Afghanistan.
    Talking about the specific Helmand area, in close 
cooperation with our British allies who have been in Helmand 
since 2006, we began our operations there really in the spring 
of 2008 with the 24th Marine Expeditionary Unit, commanded by 
Col. Pete Petronzio, went into Garmsir in the spring of 2008, 
cleared it of the enemy, and we've been in a hold-build since 
that time.
    In July 2009, with the initial tranch of troops approved by 
President Obama, 1,095 Marines, as part of the Marine 
Expeditionary Brigade-Afghanistan, went into the Naway District 
which is just north of Garmsir and cleared that, and we've 
again had troops along with Afghan partners in that area since 
that time.
    This enabled the British forces in Helmand to concentrate 
their efforts in some of the areas north of Garmsir and Naway 
to do a clearing operation simultaneously with our ops last 
summer into the Lashkar Gah Boba-G area.
    The point of all this explanation, sir, is that we've 
concentrated, we've cleared systematically over the course of 
the last 2 years, some of the key and most densely populated 
areas resulting in this remaining enemy sanctuary and this 
remaining narcotrafficking sanctuary in the area of Marjah.
    So with President Obama's approval of the additional forces 
in December, we were able to go in and finally clear the Marjah 
area and this then gets at the majority of the most densely 
populated areas in Central Helmand. So from the District of 
Garmsir in the south all the way up to Gereshk and then with 
our British partners in Sangin to the north we now have ISAF 
and Gyroa forces in the majority of Central Helmand.
    I would also mention concurrent with this has been the 
approved and funded growth of the Afghan National Security 
Forces. So we are seeing this year in 2010 the additional 
creation of an Afghan Corps that will be headquartered in 
Helmand. So whereas our operations last summer were conducted 
with a single brigade of the Afghan National Army, over the 
course of 2010 we will grow a three-brigade corps of the Afghan 
Army in the Helmand and Nimruse provinces. So there's a growth 
that's occurred, as well.
    Additionally, Afghan National Civil Order Police were 
dispatched to the area to assist in the effort and that has 
enabled us to take the police that were in Marjah for 
retraining and then a reintroduction eventually into the Marjah 
area to address one of the principal issues we've had there 
which is that connection between the government and the 
population.
    Sir, what I'd like to do is just briefly mention the 
narcotics issue and you mentioned it in your opening comments, 
sir. As we know, Afghanistan produces over 90 percent of the 
world's opium. A majority of that is grown, is cultivated in 
the southern region, and Helmand has the most densely 
cultivated areas of poppy growth in the southern region.
    By virtue of securing the population in RC-South, we de 
facto are also in many of the poppy-producing areas. What we 
have found is, through the Jirga Programs, spearheaded by 
Governor Mangal, the Governor of Helmand province, with his 
Food Zone Program, in areas that we have been able to provide a 
degree of security, he has had greater success with his 
counternarcotics program which is designed to help the farmers 
transition from poppy to licit agriculture and this does a 
couple things for us.
    One, it enables the recreation of a self-sustaining licit 
economic structure in the south and, two, it undercuts funding 
from the growth of opium that goes into the insurgency, and the 
United Nations estimates that that is in the amount of several 
hundred million dollars a year.
    Sir, a word on counterinsurgency from a practitioner's 
perspective. I think most folks are aware with the acronym 
Shape, Clear, Hold, and Transfer. What I'd like to provide is a 
little more granularity to what that means at the practical 
level.
    So when we talk about the Clear phase of an operation, our 
goal is to separate the enemy from the people and this 
separation can occur in many ways. There's a physical 
separation by killing or capturing or forcing an enemy to flee 
or, ideally, though, getting them to reintegrate back into 
society would be our real goal, and in the Afghan tradition, 
this is a much-respected way of resolving conflicts.
    So when we look at the Afghan Government and military 
today, you see many former enemies from the Communist era, 
former Communists, former mujahideen together in the 
government, in the military working together toward a solution. 
So reintegration is one of the goals in the clearing phase.
    When we shift to the Hold phase, the key task that occurs 
in that phase is the connection between the people and their 
government and this is not a forgone conclusion in Afghanistan. 
They're on their fifth form of government in 30 years. There's 
great skepticism about that government. They have in some of 
these areas that have been under Taliban control, they have not 
seen or interacted with their government. You have some fairly 
resilient social forms of governance that have high legitimacy 
but no resources.
    So when we bring in the government, what we're trying to do 
is effect that nexus between a government which has access to 
resources but low legitimacy with social forms of governance 
which have higher legitimacy but great needs. The creation of a 
secure environment enables that nexus to flourish and that is 
what we seek to do in that second phase.
    And then in the Build phase, if you will, what we're really 
talking about is building Afghan capacity toward an eventual 
transfer of responsibilities, as you mentioned. So the security 
capacity is clearly at the top of that list to enable them to 
take over security responsibilities, but also building their 
governance capacity and their ability to deliver basic services 
to the people.
    So that in a nutshell, from a practical perspective, is 
what we're after when we talk about Shape, Clear, Hold, and 
Build.
    The final thing I'd say, sir, is that this is a work in 
progress. We're 83 days into the Marjah operation. As I 
mentioned, we're seeing positive effects in Garmsir and Naway, 
having begun those in the spring of 2008 and the summer of 
2009, respectively.
    I've seen the same reports initially out of Marjah. My only 
comment on that, sir, would be those surveys were probably done 
in the early stages of the clearing operation, perhaps in the 
30-to-45-day mark, and I'm not surprised to hear there's some 
negative feedback as troops are clearing the neighborhood, as 
there's kinetic activity going on, and reflecting a condition 
that's existed for years previously of low employment and a 
desire for basic services.
    So we have heard of those concerns and with our operations 
ongoing, which we'll talk about more here during the hearing, 
we're addressing those concerns.
    So again, sir, work in progress but trending in the right 
direction and again, sir, thank you for the opportunity and 
look forward to the questions.
    [The prepared joint statement of Assistant Secretary Sedney 
and General Nicholson follows:]

   Prepared Joint Statement of David Samuel Sedney, Deputy Assistant 
Secretary of Defense for Afghanistan, Pakistan and Central Asia, and BG 
  John W. Nicholson, Jr., Director, Pakistan Afghanistan Coordination 
      Cell, the Joint Staff, Department of Defense, Washington, DC

    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
we're pleased to have this opportunity to give you an update on our 
ongoing efforts in Afghanistan. You understand the importance of this 
mission, the magnitude of the challenges we face there and the depth of 
our commitment to meeting those challenges.
    When President Obama took office, we confronted a bleak situation. 
Early gains had eroded, the Taliban was reascendant in many parts of 
the country, and Afghan confidence in the coalition was in decline. 
President Obama ordered an immediate strategy review, and in the course 
of that preliminary review we made a number of key changes. The U.S. 
Government added 38,000 troops last spring, and NATO appointed General 
McChrystal as commander of the International Security Assistance Force 
(ISAF). General McChrystal has emphasized the importance of a 
counterinsurgency strategy that prioritizes protecting the Afghan 
people over killing the enemy.
    In his December speech at West Point, the President announced a 
number of key refinements to our Afghanistan strategy including the 
deployment of additional U.S. Forces. As of April 23, over 15,000 of 
the additional 30,000 U.S. troops have deployed to the country. The 
remainder will be in place where they are needed by the end of summer 
2010, supplemented by over 9,000 additional NATO and non-NATO troops, 
over 2,000 more than had been pledged in January 2010. Over 3,000 of 
these international troops are in place.
    Partnering and improvements in Afghanistan National Security Forces 
(ANSF) training are accelerating ANSF growth and improving the quality 
of the force, with an emphasis on creating a force that is both 
effective and sustainable. Equally important has been the drastically 
expanded and overhauled civilian effort. Today there are more than 
three times the number of U.S. direct hire civilians in Afghanistan 
than there were a year ago, and over four times more civilian personnel 
deployed alongside our military personnel on Provincial Reconstruction 
Teams (PRTs) and District Support Teams (DSTs) outside of Kabul. As 
Secretary Gates notes recently, our State, USAID, and other civilian 
partners are critical to our overall military success in Afghanistan. 
Our military and civilian missions are integrated, and our military 
personnel depend upon their civilian counterparts to help stabilize and 
rebuild after the fight.
    As we stated in our April 2010 report on ``Progress Toward Security 
and Stability in Afghanistan,'' submitted in accordance with section 
1230 of the National Defense Authorization Act for Fiscal Year 2008 
(Public Law 110-181), the evidence suggests that our shift in approach 
has begun to bear fruit, even as significant challenges remain. We 
assess that the insurgency's momentum has been blunted. Closer 
coordination with President Karzai, the Afghan Government, coalition 
allies and those in the region, particularly Pakistan, is paying off as 
we see more and more of a common effort.
    Due to our change in approach, the percentage of Afghan civilian 
casualties caused by coalition actions has dropped substantially. This 
improvement has produced significant shifts in Afghan attitudes toward 
ISAF and Afghan forces. Compared to a year ago, Afghans today report 
that they are far more optimistic about the future and have far more 
confidence in our ability to prevail over the Taliban and other violent 
extremist forces.
    We've seen other positive indicators in the last year, as well. Of 
the 121 key terrain districts identified by ISAF in December 2009, 60 
were assessed as sympathetic or neutral to the Afghan Government. By 
March 2010, that number had climbed to 73 districts. Although 
Afghanistan's August elections were marred by allegations of electoral 
fraud, these allegations were addressed through constitutional means. 
Ultimately, a new government was formed. Despite the serious issues 
that remain to be addressed, a national survey completed in March 2010 
indicates that 59 percent of Afghans believe their government is headed 
in the right direction, an increase of 0.5 percent over December 2009 
and 8 percent over September 2009.
    At the January 28 London conference, following up on pledges he 
made in his November inaugural speech, President Karzai reaffirmed his 
government's commitment to peace, reconciliation and reintegration, 
developing security force capability, good governance, fighting 
corruption, economic development and regional cooperation. These 
commitments have received strong international support as the 
international community partners with the Afghan Government in a long-
term strategy to stabilize Afghanistan.
    The London conference also produced a renewed international 
commitment to strengthen civilian-military coordination in Afghanistan. 
This commitment was reflected in part by the announcement of a new NATO 
Senior Civilian Representative who is now serving as General 
McChrystal's civilian counterpart, as well as the appointment of 
Staffan de Mistura, an experienced United Nations (U.N.) diplomat, as 
the new Special Representative of the U.N. Secretary General for the 
U.N. Assistance Mission in Afghanistan (UNAMA). An international 
conference will be conducted in Kabul in July, allowing for the Afghan 
Government to present its plans for accelerating efforts to improve 
economic opportunity, security, and governance.
    The Afghan Government is in the lead for reconciliation and 
reintegration efforts. President Karzai has issued interim guidance for 
the execution of reintegration programs, with final guidance expected 
after completion of the Consultative Peace Jirga later this month. 
Karzai's guidance assigns responsibility to the Provincial governors to 
implement programs that will allow reintegration into civil society of 
those mid- to low-level insurgents who break ties with al-Qaeda, cease 
violence, and accept the Afghan Constitution, including the rights and 
protections for women and ethnic groups. We expect to release funding 
from the Afghan Reintegration Program Authority, authorized in the FY10 
National Defense Authorization Act. The ARPA will fund DOD 
reintegration activities in support of the Afghan program.
    President Karzai will visit Washington next week. A number of key 
ministers will join him and participate in meetings on themes critical 
to achieving our joint objectives implementing the Afghan Government's 
London conference commitments. Meetings with President Obama and U.S 
Cabinet officials will reinforce the long-term and vital partnership 
between our two countries in areas ranging from security to governance 
and economic development. The visit will also highlight the continuing 
support among Afghans for U.S. support to Afghanistan, particularly 
appreciation for the sacrifice being made by U.S. soldiers and 
civilians working along side their Afghan counterparts. During the 
visit, we expect to discuss a strengthened United States-Afghan 
Strategic Partnership Declaration, to be finalized later this year. 
This is a shared priority for the Afghans and for us, and we believe it 
will add confidence and clarity to our long-term partnership with 
Afghanistan. The Declaration will outline a shared vision for how the 
United States plans to support Afghanistan, as well as how we plan to 
work with Afghanistan's neighbors to integrate it into a more 
supportive and prosperous regional environment. None of these steps 
will guarantee success. But we are seeing conditions that we believe 
are necessary for success to begin to emerge. We have the right 
mission, the right strategy, and the right leadership team in place. 
U.S., international and Afghan civilian and military resources have 
been marshaled to effectively support the mission. The majority of 
international forces in Afghanistan are now under Commander, ISAF's 
(COMISAF's) command, ensuring greater unity of command.
    Our efforts to build the capacity of the Afghanistan National 
Security Forces are showing progress, though significant challenges 
remain. Currently, the Afghan National Army (ANA) strength is at 
119,338, well above the April target of 116,500, compared to an 
authorized strength of 134,000 for FY 2010. The Afghan National Police 
(ANP) has reached 102,138, with an authorized strength of 109,000 for 
FY 2010. In FY11, our goal is to build the ANA to 171,600, and the ANP 
to 134,000. We think these goals are achievable. Indeed the 
international community must publicly commit to supporting the training 
and equipping of Afghanistan's security forces even after our combat 
forces begin a responsible drawdown.
    Nevertheless, risks to the growth and quality of both Ministry of 
Defense (MOD) and Ministry of Interior (MOI) forces remain. The newly 
formed NATO Training Mission-Afghanistan (NTM-A), led by LTG William 
Caldwell, is working closely with the MOD and MOI to improve 
recruiting, training, retention and attrition. For example, salary and 
benefit initiatives have raised pay for the ANSF and addressed pay 
disparities between ANA and ANP forces. The MOI has created 
institutions like the MOI Recruiting and Training Commands to 
institutionalize best practices. The MOI is also implementing a revised 
ANP development model that will ensure all recruits receive adequate 
training before they are deployed in field. The Focused District 
Development program has provided follow-on training for Afghan 
Uniformed Police in 83 districts. The Focused Border Development 
program is accomplishing the same for the Afghan Border Police. The MoI 
has, in coordination with NTM-A, initiated planning to address 
leadership and professional development and to identify ways to counter 
corruption. NTM-A/Combined Security Transition Command-Afghanistan 
(CSTC-A) is working with the MOI to institute a competitive selection 
and promotion process that is transparent and merit based. COMISAF has 
directed that the Afghan National Civil Order Police (ANCOP) partnering 
program be expanded to provide direct mentoring. A rotation program has 
been implemented for ANCOP to ensure the units have an opportunity to 
refit and refresh after extended counterinsurgency (COIN) operations. 
All of these initiatives demonstrate the considerable attention being 
given to improve the quality of the ANSF force.
    We are also beginning to see signs of progress resulting from using 
development to support sustainable governance. Less than a year ago, 
Arghandab was an insurgent safe haven. After some tough fighting last 
summer and fall, the conditions for establishing security and 
implementing governance and development programs began to emerge. 
International actors are partnering with the Afghan district governor, 
local tribal leadership, an ANA Kandak and local Afghan Police to 
develop the programs that are building a foundation for governance and 
economic development.
    This is not to suggest that achieving success in Afghanistan will 
be easy, far from it; we face many challenges as we move forward. As 
already mentioned, we continue to struggle to improve retention and 
decrease attrition in the ANSF, and we also need to continue to improve 
the quality of the force. In the face of continued shortfalls, we are 
engaging in aggressive diplomatic efforts to encourage our 
international partners to provide institutional trainers and mentoring 
teams for the ANSF. A series of NATO meetings over the last 5 months, 
including the April Foreign Ministerial, focused heavily on addressing 
these shortfalls.
    Inevitably, we will face setbacks even as we achieve successes. We 
also need to prepare for the possibility that things will get worse 
before they get better. As additional U.S. and other international 
forces flow into theater and move into other geographic areas where 
ISAF forces have not previously gone, we have seen increases in 
violence and increases in attacks on our troops. Our adversaries are 
intelligent and adaptable, and we will need to continuously refine our 
own tactics in response.
    As you all know, operations in Helmand are ongoing, along with 
planning and shaping efforts for future operations in Kandahar. I want 
to emphasize that for ISAF and our Afghan partners, Helmand operations 
have been the first large-scale effort to fundamentally change how we 
do business. In Helmand, protecting the population is our top priority, 
along with ensuring that our military operations to ``clear'' Marjah 
pave the way for truly Afghan-led governance and economic development 
activities in the ``hold'' and ``build'' phases. Preparation for the 
operation included extraordinary levels of civil-military planning and 
engagement with the Afghans--from ANSF partners, to Afghan ministries, 
to local tribes and populations with the operation ultimately approved 
and ordered by President Karzai. Kandahar involves some fundamentally 
different challenges that will require different approaches. In the 
end, however, the success of both of these efforts will be largely 
dependent on tackling the whole-of-government challenge of building and 
sustaining governance and security institutions.
    Let me conclude by underscoring our assessment that the insurgency 
is losing momentum and we are heading in the right direction. That 
said, the outcome is far from determined. While over 50 percent of 
additional forces are in place, those still to come are critical to 
achieving success. None of what we are doing in Afghanistan involves 
quick fixes. These are long-term problems, and their solutions will 
require both patience and flexibility. At this point, though, we are 
cautiously optimistic. As said earlier, we believe we finally have the 
right mission, the right strategy, the right leadership, and the right 
resources. As we move forward, we will continue to adjust--and we 
believe that we will continue to make progress.
    As you know, the Congress is considering DOD's FY11 budget request, 
including $110.3 billion for Operation Enduring Freedom (OEF) within 
Overseas Contingency Operations, as well as an FY10 Supplemental 
request for $28.8 billion for OEF. These funds are critical to 
supporting the solution set for our mission in Afghanistan, and I ask 
for your support.
    Thank you. We look forward to your questions and comments.

    The Chairman. Thank you very much. Senator Lugar has joined 
me. Did you want to make any opening, Senator?
    Senator Lugar. Why don't we continue with the testimony?
    The Chairman. Great. All right.
    Ambassador.

       STATEMENT OF MR. FRANK RUGGIERO, SENIOR CIVILIAN 
 REPRESENTATIVE, REGIONAL COMMAND-SOUTH, DEPARTMENT OF STATE, 
                     KANDAHAR, AFGHANISTAN

    Mr. Ruggiero. Thank you, Senator Kerry. Mr. Chairman, Mr. 
Ranking Member, ladies and gentlemen, thank you for the 
opportunity to testify today on Marjah and our broader efforts 
to stabilize southern Afghanistan.
    I have a written statement that I'd like to submit for the 
record. I'll keep my opening----
    The Chairman. Without objection, it will be put in.
    Mr. Ruggiero. I'll keep my opening comments very short. I 
understand you have a hard deadline at 10 o'clock.
    The Chairman. Well, we have some flexibility in it.
    Mr. Ruggiero. OK. I would just make a couple opening 
comments.
    First of all, we greatly appreciate the support of the 
Congress to what we're trying to do in southern Afghanistan. I 
think we're at a critical moment in turning the momentum in the 
south against the Taliban. I think General McChrystal's 
strategy is leading to that moment where we could see change in 
the momentum.
    I again greatly appreciate the support of the Congress. I 
have on various occasions traveled with many members of this 
committee, Senator Kaufman twice, throughout southern 
Afghanistan.
    I want to say thank you to General Nicholson for the kind 
words in his opening comments. When I arrived in southern 
Afghanistan, General Nicholson was the Deputy Commander of RC-
South and he personally welcomed me to southern Afghanistan and 
he set the conditions for the civilian uplift and how effective 
it has been in southern Afghanistan.
    Just a few words on the civilian uplift itself. Senator 
Kerry said I'm the Senior Civilian Representative in southern 
Afghanistan. I have the authority of the Chief of Mission in 
the South. This was an invention by Ambassador Eikenberry to 
push authority down into the field in a combat zone.
    When I arrived in southern Afghanistan, there were about 8 
or 10 U.S. civilians in southern Afghanistan. We expanded that 
to over a hundred. I have people at the district level, at the 
provincial level, working with the Afghans on a day-to-day 
basis, working with our military counterparts to bring 
governance and stability and economic development to southern 
Afghanistan.
    With that, I'll end my closing remarks. Thank you.
    [The prepared statement of Mr. Ruggiero follows:]

      Prepared Statement of Frank Ruggiero, U.S. Senior Civilian 
     Representative, Regional Command-South, Department of State, 
                             Washington, DC

                              introduction
    Mr. Chairman, Mr. Ranking Member, ladies and gentlemen, thank you 
for the opportunity to testify before this committee on recent United 
States and international civil-military activities in the Marjah 
District of Helmand province, as well as our broader efforts to support 
the Afghan Government in its efforts to provide expanded governance and 
improved socioeconomic opportunities across southern Afghanistan. I'm 
pleased to be here today with BG Mick Nicholson from the U.S. Army, who 
has been a superb partner for both our civilian team in the South and 
also for our Afghan partners.
                          the civilian uplift
    In March 2009, President Obama announced our intent to expand 
greatly the number of U.S. civilian experts working in Afghanistan, and 
especially the number of USG civilians deployed outside of Kabul. The 
President highlighted this increased presence when he announced an 
additional 30,000 troops for Afghanistan in December 2009, and 
Secretary Clinton has emphasized that a robust civilian presence and 
assistance mission will need to continue well beyond the conclusion of 
our combat mission.
    When I arrived in Kandahar to assume the new position of Senior 
Civilian Representative for Southern Afghanistan in July 2009, there 
were a total of eight U.S. civilians serving the six provinces that 
constitute Regional Command-South (RC/S). That number has grown 
steadily and we now have over 100 U.S. civilian officers from the State 
Department, USAID, and the U.S. Department of Agriculture serving at 
the RC/S headquarters as well as in four international Provincial 
Reconstruction Teams (PRTs) and 12 newly formed District Support Teams 
(DSTs). We very much appreciate the support of Congress in enabling us 
to better address the huge needs in RC-S with greater human and 
financial resources.
    The State, USAID, and USDA representatives at our PRTs and DSTs 
actively engage with the Afghan provincial and district governments, 
offering them support and working in tandem to develop Afghan 
Government capacity and implement development projects crucial to the 
success of our overall military mission. These officers operate in the 
most challenging of circumstances.
    The DSTs are a critical innovation to extend the reach of the 
Afghan Government to the grassroots, which is key to General 
McChrystal's counterinsurgency (COIN) strategy. DSTs typically consist 
of one State, one USAID, and one USDA representative. Their working and 
living conditions vary from district to district, but their primary 
role is to engage with the district government on a close basis. In 
fact, they frequently live at or within the district government 
compound. Working in partnership with district government leadership, 
U.S. military counterparts, and Afghan security forces, the DST 
supports activities such as creating workable district development 
plans and forming representative community councils. They seek to 
strengthen the district government's links with provincial authorities 
to ensure the needs of the district are conveyed and that appropriate 
ministries in Kabul address their needs, always with transition 
ultimately in mind. In areas and districts where the Afghan Government 
has recently asserted greater authority, DSTs, in partnership with 
ISAF, become the backbone in support of Afghan governance.
    U.S. civilians have a very close working relationship with ISAF at 
all levels. However, they fall under the Chief of Mission authority of 
Ambassador Eikenberry and their activities are directed and coordinate 
by me and my interagency team colocated with the RC-South military 
headquarters at Kandahar. In the South, I am the partner of the RC/S 
Commander, U.K. Maj. Gen. Nick Carter.
                  the importance of helmand and marjah
    Recent civ-mil operations in Marjah are part of the wider Operation 
Moshtarak, which in Dari means ``together.'' Operations include not 
only Marjah, but the larger Nad-e-Ali district. These operations are an 
example of the expanded U.S. civilian presence that, working with our 
Afghan and ISAF partners, seeks to extend Afghan governance authority 
across the South. In the past year, we conducted similar stability 
operations in Arghandab, Nawa, and Garmsir. So, why Marjah, and why 
now?
    From a counterinsurgency perspective, the Helmand River Valley is 
key to securing the population of southern Afghanistan. Over 75 percent 
of the population of Helmand resides in the districts between Gereshk 
and Garmsir on the Helmand River; Marjah is a key district in this area 
of approximately 100 square miles with an estimated population of 40-50 
thousand in the new Marjah district boundaries. U.S. Marines and 
British forces cleared much of central Helmand in the summer of 2009, 
but Marjah and parts of Nad-e-Ali district remained under Taliban 
control. The Taliban view Helmand as a key province to control and to 
use as a supply route for its activities throughout the south and 
further north. In recent years, Helmand has been Afghanistan's most 
violent province and has produced by far the most narcotics, but it is 
also the province with the largest percentage of arable land and is 
among the most populated. Strategically, Helmand is also critically 
linked to the development and security of neighboring Kandahar 
province. For decades, the United States has had significant interests 
in working with the Afghan Government to develop and build capacity in 
Helmand, including in the 1950s building the irrigation system that 
created many Helmand population centers, including Marjah.
    Marjah was under direct Taliban and narcobaron control from 2008 
until the Afghan Government reasserted its authority with international 
support in February 2010. Marjah has been a staging ground for attacks 
on government-controlled areas, including a number of attacks on the 
provincial capital Lashkar Gah less than 20 miles away. The town was 
also producing a great proportion of the IEDs used against Afghan and 
international forces in Helmand. With its richly irrigated farmland, 
Marjah was also Helmand's primary poppy growing district. Marjah was 
thus not only one of the last Taliban strongholds in central Helmand 
but through illicit crop taxation, a productive financial source for 
insurgents.
    The operation in Marjah also had important effects for Nawa, 
another key district in Helmand, adjacent to Marjah. Throughout late 
2009 and early 2010, Nawa district leaders and citizens were wary of 
the negative influence from their neighbor. Within a month of the 
formation of the Nawa community council in October 2009, Taliban taking 
refuge in Marjah assassinated three members, including the chairman. 
After these killings, the community council took several months to 
rebound to a point where members felt safe enough to represent their 
villages openly. Additionally, Taliban control of Marjah restricted 
Nawa residents' freedom of movement as they were scared to travel on 
roads when the enemy could attack them and then easily retreat to 
Marjah. As Marjah's security expands, Nawa's security, governance, and 
economic growth will also progress, as will the conditions in 
neighboring
Nad-e-Ali and the provincial capital of Lashkar Gah, total population 
of around
\1/2\ million.
                a new level of partnership with afghans
    Operation Moshtarak to clear Marjah and Nad-e-Ali districts 
represented a new level of partnership between the Afghan Government 
and the international community to plan and implement a fully 
integrated civilian-military clearance and stabilization operation, 
with Helmand Governor Mangal in the lead. Plans were developed in 
complete consultation with Afghan authorities. And Governor Mangal led 
a delegation together with his Afghan Security partners--and including 
Afghan police and army counterparts--to brief President Karzai and his 
National Security Council in late January. General Carter and I spent 
many hours with our Afghan counterparts planning this operation to 
ensure the political context was set, Afghan forces were available and 
partnered with ISAF forces, and the Governor Mangal-led stabilization 
plan was in place. The Afghan Government also made a concerted effort--
through the Independent Directorate for Local Governance (IDLG)--to 
develop a District Development Plan in Nad-e-Ali, including Marjah, to 
create enhanced local governance capacity. This included filling the 
staffing patterns of district-level government offices once clearing 
operations were concluded. Filling these government positions is key to 
our COIN efforts to extend Afghan governance authority in key districts 
and has been a significant challenge due to limited Afghan capacity. 
There are Afghan civil servants qualified to fill positions at the 
provincial or district level, but most are reluctant to actively occupy 
positions in recently cleared areas throughout Helmand. Some officials 
have returned to Nad-e-Ali and Marjah districts, but it will remain an 
ongoing effort to convince Afghan civil servants to work from these 
district centers.
    Operation Moshtarak proceeded only after receiving final approval 
of Afghan authorities. On February 11, Minister of Interior Atmar and 
Governor Mangal convened a well-attended meeting, dubbed a ``super 
shura,'' with local elders in Lashkar Gah to discuss Operation 
Moshtarak and respond to questions and concerns. At President Karzai's 
request, Governor Mangal held a follow-up shura on February 12 with a 
smaller group of key Marjah elders to ensure that all of the 
operational details were understood. On the evening of February 12, 
President Karzai authorized the launch of the operation. Hours later, 
at approximately 0200 on February 13, Afghan and ISAF forces commenced 
operations.
                                 d-day
    In the weeks leading up to Operation Moshtarak, State Department 
and USAID civilians, as well as USAID implementing partners, worked 
side by side with their Afghan and ISAF counterparts to prepare for the 
launch of the operation. The degree of civilian integration and 
planning exceeded all previous efforts in Afghanistan. Heeding the 
advice of RC-South and the U.S. Marines, and acting in coordination 
with Afghan Government authorities, U.S. civilians entered Marjah at 
D+4 with the District Governor elect to conduct a development survey. 
Once military forces secured an area near the Marjah village center for 
a secure forward operating base, U.S. civilians, as well as several 
Afghan Government representatives, moved their operations to Marjah and 
established residency there. On February 25, the Afghan flag was raised 
at the Nad-e-Ali district center. On March 7, President Karzai, 
accompanied by several ministers, visited Marjah and met with local 
residents.
                              marjah today
    Although still early in the campaign--less than 3 months into the 
hold phase--conditions in and around Marjah are becoming more secure 
since the launch of the operation. Freedom of movement is improving for 
local residents, including commercial movement to and from markets in 
Lashkar Gah. Residents in some parts of Marjah, however, continue to be 
intimidated and harassed by insurgents and the levels of violence 
remain a hindrance to establishing Afghan governance and stability 
operations.
    While still hindered by the lack of security and freedom of 
movement, the Afghan Government presence in Marjah is becoming larger 
and more active, with the support of U.S. and U.K. civilians. With the 
exception of Nad-e-Ali, there are now more permanent civil servants 
working in Marjah than in any other district in Helmand. District 
Governor Haji Zahir is reaching out aggressively to elders and 
communities and is present in the district center, which is currently 
undergoing refurbishment. The bulk of his immediate staff is in place, 
including the Chief Executive, Office Director, Sector Director, and 
District/Village Officer. There are a growing number of line ministry 
officials working in Marjah on a seconded basis from the Ministry of 
Agriculture, Irrigation and Livestock (MAIL), the Ministry of Rural 
Reconstruction and Development (MRRD), the Ministry of Education, the 
Ministry of Public Health. In addition, there is now a prosecutor, 
seven National Directorate of Security (NDS) officials, and five 
Criminal Investigative Division (CID) officials in Marjah. This 
increase must be tempered against the reality that Afghan governance 
capacity is limited and even the creation of this level of government 
is likely to prove a challenge to replicate in other key districts in 
any short-term timeframe.
    There are other important, ongoing activities in Marjah: 
construction of a new government center has begun; roads are under 
construction; over 2,000 farmers have benefited from the a poppy 
transition program; and about 4,000 water pumps and agricultural 
support packages will be distributed by USAID under the Afghanistan 
Vouchers for Increased Production in Agriculture (AVIPA) Plus program.
Public services such as health, education, water, and dispute 
settlement are start-
ing to be provided. Students at Luy Cherey Boys High School in Marjah 
are now going to classes in temporary tents. The classes were moved 
from the damaged school building to the temporary tents, so that 
demolition and construction of a new school building can begin at the 
site. Afghan National Security Forces (ANSF) are increasingly visible 
on the streets and bazaars of Marjah and now occupy an ever increasing 
number of observation posts at the major intersections. There is also 
an increasingly level of commercial activity. There is, however, a long 
way to go.
                          the future of marjah
    The governance outlook for Marjah is generally positive. Afghan 
officials in Kabul are working with the provincial and district 
governments to provide more support from the central government. They 
are seeking ways to increase the quantity and quality of Afghan 
National Police deployed in the district in coordination with the 
international community and ISAF. Both Governor Mangal and the Marjah 
District Governor are engaged in an aggressive political outreach 
campaign to understand community needs that must be addressed and to 
ensure that residents recognize the government is seeking to address 
those concerns. Key officials also remain engaged in implementing the 
District Development Plan, soliciting assistance for all sectors from 
the central government and international community.
    ISAF will continue to work closely with Afghan authorities at all 
levels. Given that the face of ISAF is often the first seen by 
residents after a clearing operation, ISAF forces play an important 
role in ensuring a smooth transition from security operations to 
civilian-led development operations. The Marines understand this. ISAF 
forces will continue to work with civilian and Afghan counterparts to 
achieve maximum results. U.S. civilians, working with their U.K. and 
Danish counterparts at the Helmand PRT, will continue to support the 
Marjah DST, currently Afghanistan's largest DST in terms of 
international money and staff. The PRT will also continue to work with 
the provincial and district governments on political outreach and to 
push for greater line ministry representation and delivery for Marjah.
                               challenges
    Governance can only improve as fast as Afghan authorities can 
provide properly trained staff with adequate salaries and benefits that 
will ensure they stay on the job. Security also plays a crucial role in 
increasing governance capacity. Representatives of some line ministries 
continue to refuse to stay in Marjah, fearing intimidation and 
violence, and those officials who do show up to work require greater 
freedom of movement to become effective service providers.
    There is no ``one size fits all'' strategy for development and 
capacity-building in districts following ``clearing'' operations. Nawa 
and Garmsir districts, for example, followed different, yet largely 
successful paths. But the one common feature is that of the different 
phases of counterinsurgency (shape, clear, hold, build, transfer), 
``clear'' is vital but not the decisive phase, it is the ``shape'' 
phase and the prospect of what comes in the ``hold'' phase that is 
decisive in southern Afghanistan. Likewise, conditions in Marjah are 
unique in some respects. A ready-made government concept cannot take 
into account all the intricacies for proper governance capacity 
building. Having a district governor in Marjah with a staff within the 
first 45 days following the launch of the operations was no small feat 
for rural Afghanistan, but more resources and greater central 
government support will push the government to better, higher levels. 
Afghan capacity, however, remains limited.
    Although these are real challenges, we expect that efforts by the 
Afghan Government and international community to improve conditions in 
Marjah will persist. As has happened in some other districts in the 
South, such as Nawa, Garmsir, and Arghandab, solid, measureable 
progress in Marjah could likely be achieved in the months to come. The 
key to success at the district level is to tie Afghans to their 
government and allow local residents to believe in a future without 
Taliban intimidation. This takes times, resources, and persistent 
security. And great patience.

    The Chairman. Wow. Those are pretty brief opening remarks. 
I think we'll have to bring you back here and have you lead our 
witness school and get everybody similarly prepped.
    Well, thank you, both. Again, thanks for the job you're 
doing and thanks for the testimony. It's helpful.
    Help us to understand. Do you agree with General 
Nicholson's sense that those comments--I thought that that 
analysis had been made fairly recently. So in the back end, 
when the kinetic had stopped but that doesn't mean there 
wouldn't be some spillover in the impact, but what about this 
notion that more people joined the Taliban?
    I mean, this is always one of the arguments you hear about 
any of the kinetic operations that we engage in, that they wind 
up encouraging that. What's your take? Are we still looking at 
an Afghanistan where you're looking at about a 90-percent 
dislike of the Taliban?
    Mr. Ruggiero. That's my sense, Senator. I read the 
executive summary of that report this morning and from everyone 
that I talk to in southern Afghanistan, from government 
officials at the district level to the provincial level to 
Afghans on a daily basis, I do not get the sense that there is 
great support or even limited support for the Taliban and what 
the Taliban has to offer.
    In general, the Taliban, what they do offer in terms of 
services are a crude brutal form of justice and that is 
something that Afghans will generally gravitate toward because 
it is a dispute resolution process that the Taliban offers.
    The Taliban offers nothing else. They offer no services. 
They offer no sense of security. So when we go in there and do 
basic counterinsurgency operations, which is to help the Afghan 
Government at the district and provincial level deliver basic 
services to the Afghan people, we generally find a pretty 
receptive audience, once the security conditions are set, that 
people can take part in the programs that we're offering 
through the government.
    The Chairman. When you analyze our policy there and as we 
led up to the sort of new strategy and its implementation, 
there was a lot of debate about nation-building and the 
fundamental decision was made: we are not going to engage in 
``nation-building.''
    On the other hand, it seems to me that we are doing some 
local community-building which is not unlike nation-building 
but it's just--it's sort of local to an area. I don't know how 
we could do what we say we're trying to do which is stand up a 
government, provide some services, get some jobs, give them 
some schooling, you know, do the things necessary, without 
providing some of the resources to do that.
    I assume you all agree with that and, therefore, it begs 
the question, Are we providing enough? Do we have the 
sufficient civilian component here to wrap up what you folks in 
the military have, kind of, set the stage for adequately? 
What's your judgment about that, General?
    General Nicholson. Sir, first, I agree that an amount of 
building of capacity is absolutely essential to the outcome, 
and I'll just go back to that Coin model. This connection 
between the population and the government is about 
transparency. It's about delivery of basic services. It's about 
a degree of accountability. So those dimensions must be there 
or we won't connect them to their government.
    So the art of this, as you mentioned, is how to build that 
capacity. We were discussing Greg Mortonson's work before. 
Education is certainly a key component there in a country with 
the majority of the population under the age of 17. The 
education of the next generation who will be those capable 
leaders and serving in the military and the civil service and 
so forth is absolutely essential. So yes, sir, that is 
required.
    One of the challenges is the fielding of district level 
governance capacity from two dimensions. One, the available 
pool of Afghans able to do that and willing to do that, to go 
to some of these more difficult areas and serve, so 
incentivizing that is important, and then identifying and 
recruiting those folks is extremely important.
    The Chairman. You want to add to that?
    Mr. Ruggiero. I do. I don't think we're involved in nation-
building in the grand Wesvalian sense. What we are doing is 
using the resources provided to build enough Afghan capacity so 
that in a counterinsurgency fight we'll be able to transition, 
we'll be able to, first of all, allow the local Afghan 
Government to provide basic services to the people so that we 
can transition the authority that the coalition currently has 
to, first, the ANSF, the Afghan National Security Forces, and 
then to a district level government that can work with--and 
provincial level government--that can work with that Afghan 
National Security Force to take over the security 
responsibilities.
    So we're using our resources in a very targeted way to 
create some very basic structures that will allow the 
governance aspect to exist.
    The Chairman. Underneath all of that, I wonder if, given 
the complaints of some of the folks as expressed in that survey 
which is not obviously the gospel with respect to all of this, 
but it's a guidepost, if we wouldn't--if we shouldn't consider 
some other kinds of programs or approaches, to wit, make sure 
that there is a sufficient level of refugee assistance which, I 
think, was not necessarily present in Marjah, go so far as to 
actually offer--that we would offer--we would help the local 
government to offer marriage and land allowances which seems to 
me a pretty effective way to get young men focused on their 
personal lives rather than being lost to, perhaps, insurgency.
    A third idea: work with the local religious leaders to 
renovate mosques, shrines, and to distribute the Koran which 
would show a respect for Islam and something that would 
resonate with the local populous. I am told that it's a big 
deal in local culture if you actually own a Koran. I think it 
would be something.
    If we were to offer food aid, particularly in the harsh 
summer and winter months when the water problems or the winter 
problems are the toughest, and even consider poppy production 
in terms of controlled medicine pilot projects where it's 
medically related as a way to kind of break through on the 
narcotics issue but still have some connection to the local 
needs.
    I mean, I think there are ways like that that we could be 
more proactive and localized, I guess is the way I'd put it. 
What do you think of that?
    Mr. Ruggiero. Again, I read the report this morning and 
some of the points in that report were actually very accurate 
and raise some interesting points.
    In terms of the overall report, I would echo what General 
Nicholson said earlier, that we're very early in this campaign 
in Marjah. I think we're at about 90 now or we're approaching 
day 90.
    I would point to Arghandab, which the Striker Brigade 
cleared last summer in Kandahar. That was in August and 
September 2009. They took significant casualties. It was 
unstable for a period of time throughout the fall.
    I think if you go to Arghandab now, and many of the members 
have actually been out there, you'll see a place where we're 
having fairly good success in terms of doing hold and build. So 
we are hiring a lot of people. We--not we. We are doing through 
the Afghan Government. In particular, there's an agricultural 
program called the Afghan Vouchers Program.
    We have had up to 40,000 people that we've given some form 
of livelihood through that program and again this was funded by 
the Congress at $360 million. This program's having a great 
effect. We're just rolling that program out now in Marjah. Our 
implementing partner is going into Marjah, I think, in the past 
couple weeks.
    The Taliban understands that we have this program. They 
target this implementing partner. They blew up their facilities 
in Lashkar Gah. They target their employees that travel the 
road from Lashkar Gah out to Marjah.
    So in terms of the report saying we should offer additional 
things, I think we've tried to come up with some very creative 
things with the support of the Congress.
    The Chairman. Let me just interrupt you 1 minute. Our vote 
has started. I'm going to go vote, try and get back as fast as 
I can. Senator Lugar, if you would continue. We'll try to make 
it uninterrupted, if we can, and I'll try to get back as fast 
as I can.
    Senator Lugar. All right. Thank you very much.
    The Chairman. Go ahead. Finish up your answer.
    Mr. Ruggiero. Thank you. On the refugees question, we 
worked very closely with Governor Mangal, the Governor of 
Helmand, to make sure that there were a various range of 
programs in place if there were a large refugee flow out of 
Marjah.
    During the actual operation, the Afghan National Government 
came to the decision that was relayed to the local people to 
tell them not to leave their homes, to remain in their homes 
and that the coalition would take great care to make sure that 
collateral damage was minimized, and I think the U.S. military 
did an outstanding job in that regard.
    Let me go back one second to the refugee question. There 
was some reports earlier this week that recently people have 
been fleeing Marjah and we have checked. I have two or three 
State Department--I actually have five State Department people 
on the ground in Marjah and I've gone back to all of them and 
they've gone and talked to their military counterparts and they 
could not substantiate those reports that people are in fact 
leaving.
    On the poppy question, I think we have been very concerned 
that the first action of the Afghan Government when it has 
extended to Marjah, that the first thing it did--we wanted to 
make sure the first thing it does is not to wipe out someone's 
livelihood for the upcoming harvest. So we were careful not to 
do--we don't do eradication any longer but the report was 
skeptical, I think, in that it suggested that we did do 
eradication. In fact, we have not in Marjah.
    Senator Lugar. Thank you very much, sir. Let me give 
portions of the opening statement that I would have made if I 
had been prompt this morning. They will set the stage for some 
of our additional questioning.
    The Marjah offensive, launched in February of this year, 
was the first phase of a joint counterinsurgency strategy 
between Afghanistan and the International Security Assistance 
Force. General McChrystal has said that soldiers are being 
positioned to wage a summertime operation intended to push the 
Taliban from their home turf in Kandahar where the insurgent 
movement sustains itself.
    As an objective, Kandahar is a dramatic leap in terms of 
relative size and importance. What are the lessons learned in 
Marjah regarding military and civilian engagement and, how 
applicable will they be to Kandahar and the rest of the 
country?
    Through Afghan civilian governance had been bolstered in 
Marjah and cash-for-work programs are underway, security 
remains volatile and the situation is reported as reversible. 
Progress, however it is measured, will be possible only with a 
committed and engaged partner. President Karzai's effectiveness 
has been questioned by several voices within the administration 
during the last year. Recently President Karzai expressed only 
conditional backing for the Kandahar operation. Subsequently, 
the Secretary of State and General McChrystal asserted 
confidence in his commitment to a partnership with the United 
States.
    A key to the President's strategy is shifting 
responsibility to Afghan institutions is the Transfer element 
of Clear-Hold-Build-Transfer. That means there must be Afghan 
Security Forces and Afghan civil servants who are able to 
accept responsibility and to operate effectively.
    Thus far, the Afghan National Army appears to be a 
relatively positive force. Yet despite partnering with ISAF 
Forces in recent operations, it is evident that the Afghan Army 
is still ill-prepared to lead. Meanwhile, raising the 
capabilities of the Afghan National Police is proving a 
difficult challenge for international police training experts.
    The Afghan Civil Service Commission and the Afghan Civil 
Institute also factor into the counterinsurgency equation. Each 
is relatively new in meeting the requirements of providing 
thousands of trained technocrats to enable basic service 
delivery in select areas.
    While there are commitments to train more than a thousand 
persons a month, the reality is that such training will be 
limited and spreading the personnel effectively across 
Afghanistan will be a daunting challenge. I make these points 
to outline the importance of setting and then meeting 
appropriate expectations.
    Building security forces to the level of several hundred 
thousand does not, in and of itself, guarantee order and 
discipline. Nor does populating districts with civil servants 
mean that basic services will be delivered. Some observers 
suggest much larger forces may be necessary, but that the 
burden might well prove to be too great for both Afghans and 
the international community.
    Sustainable progress will require some political resolution 
as well as committed Afghan partners capable of turning local 
and national institutions into responsive entities for the 
Afghan people. I look forward, as you are, compatriots on the 
committee, to hearing from each of you and in subsequent rounds 
I will hear more from you, but for the moment, I'll ask that we 
recess the committee. Pending the return of our chairman, we'll 
be in recess for a few minutes while the vote continues.
    Thank you.

    [Recess.]

    Senator Kaufman. The wonders of the Senate. Sometimes you 
feel absolutely Pavlovian. Bell rings, you go.
    Really pleased to have you here today. Obviously there's 
nothing we're doing that's more important than Afghanistan 
because we have our wonderful, wonderful, wonderful troops in 
harm's way and trying to get to the bottom of how to do this, 
and I think we're doing a great job in Afghanistan in a very 
difficult situation.
    Obviously we left and came back a couple times and it makes 
everything that we do over there so much more difficult. We've 
got the right people over there, I think, and we're doing a 
great job.
    I'd like to kind of spend a couple minutes, obviously I've 
talked about this a little bit, and I think the key points are 
what you all said but, General, you know, really talking about 
the build phase. It's not the U.S. versus the Taliban. I think 
one of the biggest problems we have in this town is we kind of 
start just morphing into the what can we do to make the people 
like us as opposed to what can we do to make the government.
    As you said, the key thing when you get to the build phase 
is how do you connect with the government, not our government, 
how to connect with their government, and how much of this, you 
know, report about short-term happiness, unhappiness, I'd like 
you to comment on how much do you think is just caused by the 
people's terrible experience with the government before, not 
that they dislike the Taliban, all the data shows that, they 
really don't like the Taliban, but when you look at it in the 
context, as you said, General, that it's really the government 
versus the Taliban we're talking about, how much do you think 
of the bad vibes or problem we're having, people may be joining 
the Taliban is based on the people in Marjah's experience with 
the government before the Taliban came in?
    General Nicholson. Yes, sir. I mean, as you pointed out, 
the enemy is not popular. He's dangerous but he's not popular, 
and one of the other dimensions to Central Helmand is this 
nexus between the enemy and the criminal element and so the 
narcotraffickers, the drug trafficking organizations, and the 
enemy together have combined to create a set of conditions 
there, as well.
    Senator Kaufman. Can I just stop for one second and just 
ask you? Isn't there kind of a connect between the government 
and the criminal element? I mean, this is not like we've got 
the Taliban and the criminal element on this side and the 
government on the other side and especially when you think 
about Marjah pre-Taliban.
    I mean, isn't it a problem for us--not a problem for us, 
for the government because they're identified with them?
    General Nicholson. Yes, sir. There are linkages between in 
terms of government corruption, criminal elements and 
insurgency and the nexus of all these various threads is 
something we're working hard to identify and then to introduce 
accountability and to counter that.
    Senator Kaufman. But specifically in Marjah, and this is 
good, I mean, because we can sit here and talk about 
Afghanistan, but trying to hone in on Marjah, I think this is a 
good example. I mean, clearly, the criminal elements were 
almost in charge of Marjah before the Taliban--the Taliban kind 
of came. They didn't like the Taliban, but then to a certain 
extent the Taliban saved the local populous from the local 
criminals.
    General Nicholson. Sir, I'll give you one concrete data 
point in this. When the Marines moved into Marjah with the 
Afghan National Army and, of course, Governor Mangal's team 
right on their heels, one of the first things they did was to 
remove the police force from Marjah. This is the Afghan 
Government Police----
    Senator Kaufman. Right.
    General Nicholson [continuing]. Were removed and replaced 
by the Afghan National Civil Order Police who have greater 
credibility----
    Senator Kaufman. Right.
    General Nicholson [continuing]. And are viewed as more 
objective and capable by the people.
    So in the initial shuras that were held and, Frank, I'll 
defer to you because you were at those shuras, but this was one 
of the chief complaints and so getting to your point about 
dissatisfaction with the government, the police in Marjah was 
one of the key elements of alienating the people from their own 
governments.
    So yes, that was key, and it was addressed specifically in 
the planning and now, of course, the recruitment and the 
training of a new police force to come in to Marjah and then be 
partnered with the ISAF and ISAF elements in there will be 
essential, we view, toward facilitating this linkage, you know, 
between the people of Marjah and the larger Nadali District and 
their own government.
    So absolutely, there are connections there and where we 
identify them, as in this case with the police, then we address 
them quite directly, but that requires commitment on the part 
of the Afghan Government which we have in the form of Governor 
Mangal and on the part of President Karzai who approved the 
operation and issued presidential directives for much of these 
activities to take place.
    Senator Kaufman. I know Mr. Ruggiero's anxious to speak, 
but the point is that there will be reason for the people in 
Marjah not to be happy--maybe happy to see us show up but not 
really happy to have a new government show up, is that fair to 
say? A concern?
    Frank, you were there for the whole thing.
    Mr. Ruggiero. I think that's absolutely fair. When we went 
in to Marjah after the military cleared it, we had--we sat down 
and talked with many government officials and local people and 
the message was very clear that they gave to us, which was if 
you are here as the coalition to bring back the police force 
that was here before, we will go back and support the Taliban.
    It was the message that was given to us. It was the message 
that was given to the Afghan Government. So as General 
Nicholson said, the planning called for when you put a new 
police force into Marjah, you could not try to resurrect that 
old police force but you were going to--what they pulled was 
the Afghan National Civil Order Police and that is the police 
force that currently is controlling Marjah.
    There will be an effort to train up a new police force not 
from that local area that will go in, but your point's 
absolutely right.
    Senator Kaufman. And it's not a trivial problem. I mean, 
it's at the heart--I mean, it's not--it is the problem. I mean, 
the people's experience with the government, their concern 
about what they see happening in Kabul, it all affects how they 
feel, whether it's positive or negative, that when we showed 
up.
    Mr. Ruggiero. Yes, and in a counterinsurgency fight, you're 
basically trying to win it. There's an argument going on 
between the government and the insurgents for the people's 
loyalty.
    If the first reaction or the first instance you have of 
connection with your government is a corrupt police force or a 
police force that, in the instance of Marjah, was harmful to 
the people, you cannot win that counterinsurgency fight in that 
particular area. So that we addressed that right off the bat 
when we brought in the NKAM.
    Senator Kaufman. Can you express in the same area the 
conflict between trying to eradicate narcotics but at the same 
time trying to win the hearts and minds of the people in the 
area?
    General Nicholson. Sir, in early 2009 we went through a 
reconsideration of the counternarcotics approach in southern 
Afghanistan and up until that time eradication, what was really 
United States-funded eradication, effort was ongoing in 
Helmand. There also has always been a governor-led eradication 
effort underway.
    We have shifted away from that U.S.-funded centrally led 
eradication effort to focusing more on alternative livelihoods 
and a heavier interdiction effort and we've seen success with 
this approach thus far. It's beginning, and we're obviously 
watching this very closely, but to get to your point, yes, the 
logic would be that we interdict the drug trafficking 
organizations with the Government of Afghanistan Special 
Interdiction Forces which are trained and mentored by the U.S. 
Drug Enforcement Agency and also some of our allies, so a heavy 
focus on the drug trafficking organizations and their 
interdiction and then in secured areas, like Marjah is now, we, 
through the Afghan Government, reach out to them and offer 
alternatives to help them transition from poppy to licit 
agriculture.
    So this is the new approach. We're watching it very closely 
to see the effects on cultivation and the effects on the drug 
trafficking organizations.
    Senator Kaufman. Mr. Ruggiero.
    Mr. Ruggiero. I think that's correct. Our focus now is no 
longer on eradication because that inevitably harms the local 
farmer who you're trying to win over in that contest with the 
Taliban for support of the government.
    What we do focus on now is interdiction and alternative 
livelihoods. So we have a series of programs. I mentioned this 
Afghan Vouchers Program and Agricultural Program that is 
specifically designed to provide Afghan farmers input so they 
move away from poppy production, and I think we've seen some 
level of progress in poppy production thus far. In Helmand last 
year, according to the United Nations, poppy production had 
fallen by about 30 percent.
    Senator Kaufman. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Good morning. 
Thank you all for your service. It's very nice to see you in 
D.C., General Nicholson.
    I want to follow up a little bit on some of the things that 
Senator Kaufman was talking about. As I'm sure you remember, 
one of the people we met with on our visit to Helmand was 
Governor Mangal and he got very good reviews from folks we had 
talked to and was very impressive.
    I wonder if you could talk about whether you think he's 
able, given all of the constraints, to make progress there and 
what the role that he and some of the other local officials are 
playing and whether that's positive and have they been 
integrated into the effort that we're working on with the 
Central Government or are they operating independently. Either 
one of you or both.
    Mr. Ruggiero. I would just make a couple comments to start.
    The planning for Marjah was really the first integrated 
planning process that we did with the Afghans that went from 
the district level to the provincial level where Governor 
Mangal sits all the way up to the national level.
    We developed the plans for Marjah in coordination with the 
Ministry of Interior, the Ministry of Defense, and those 
Ministers of the National Government in Kabul, particularly 
Minister Atmar of Interior and Minister Wordek at Defense.
    The actual plans on the ground were developed with the 
local A&A and the A&P commanders. They went to Kabul with the 
Commander of RC-South. They briefed the Security Shura which is 
the ministry-level bureaucracy in Kabul. They then briefed 
President Karzai. President Karzai authorized the 
authorization.
    I think we in RC-South felt that we had to get the 
political context right in order for Marjah to be effective. So 
again, President Karzai came down before the operation began. 
The plan was briefed to President Karzai. His ministers played 
an active role in making sure the forces were available and the 
resources.
    So I think in terms of planning and what Governor Mangal 
did, he did that in very, very close cooperation with the 
National Government.
    General Nicholson. Ma'am, if I could comment. Good to see 
you again, ma'am.
    Governor Mangal, in my opinion, is one of the better 
governors in Afghanistan, if not the best, and I had the 
opportunity to work with him in 2006 and 2007 in RC-East where 
he was Governor of Paktika and Laghman provinces and then 
worked with him again in Helmand province, which is arguably 
one of the most difficult provinces in Afghanistan.
    So my first point about Governor Mangal would be to me he's 
representative of the caliber that we see of some of the Afghan 
leaders who truly want this to be successful, want to see their 
governments succeed, and it's individuals like Governor Mangal 
and my personal contacts with him over the last 4 years that 
have reinforced in me the belief that this is doable, that 
because there are enough Afghans like him that want this to 
succeed for them, not us to succeed but them to succeed to make 
this attainable.
    Specific examples of his leadership and the difference it's 
made. I mentioned the Food Zone Program, as he calls it, which 
is really focused on this transition from poppy to licit 
agriculture. His important parts of the Food Zone Program, we 
talked about interdiction, we talked about alternative 
livelihoods, we talked about the eradication component, but 
other critical components that he's taken on his own initiative 
are the outreach to the local population, the shuras that he 
holds in every district to talk about poppy and talk about why 
it is better for them as a society to move away from poppy and 
to move to licit agriculture.
    He's harnessed the power of the religious Yulima of Helmand 
against narcotics and incorporates Mullahs and religious 
scholars into these discussions. So his outreach to the people 
of Helmand goes beyond the specific programs. It really is 
getting to the intangibles of this and trying to restore 
normalcy and sustainable licit economy to the region and so 
these are things that, of course, we cannot do, that they must 
do for themselves and so watching him as a leader take those 
steps to--and in so doing pitting himself against some very 
wealthy and powerful narcotrafficking organizations and to do 
that even though there's been well over half a dozen attempts 
on his life in this most recent job, again gives me great 
confidence that the individuals like him, if supported 
properly, can move this thing forward.
    Senator Shaheen. And is he getting support from the central 
government in those efforts? I appreciate that you explained 
that they were involved in developing the strategy for Marjah, 
but on those kinds of outreach initiatives, the efforts to turn 
things around, is the central government supportive? Are they 
an impediment or are they irrelevant?
    Mr. Ruggiero. I think in the instance of Marjah, the 
central government was critical to the planning and the 
availability of resources on the Afghan side. The Independent 
Director for Local Governance, the Minister that's in charge of 
Subnational Governance in Afghanistan, came to Marjah and to 
Helmand at least four, five, or six times. His objective was to 
help Governor Mangal create local governance capacity which is 
a real challenge in southern Afghanistan and across 
Afghanistan.
    Senator Shaheen. right.
    Mr. Ruggiero. But in the end, what we've ended up seeing is 
that, at least in Marjah, you're starting to see some level of 
governance capacity develop. I think as of last count there are 
about 16 members of the district government team in Marjah 
itself which is for southern Afghanistan fairly large. So from 
my experience of working with the Afghans on the planning for 
Marjah, I think the central government played a very important 
and critical role.
    Senator Shaheen. And I'm almost out of time, so maybe I 
should save this question, but as you're thinking about lessons 
from Marjah that can be used as we're looking at what needs to 
be done in Kandahar, are there particular things that you 
observed that we've experienced that we think are important as 
we're looking at what needs to be done in Kandahar?
    General Nicholson. Ma'am, and I'm sure Frank has many 
lessons, as well, this methodology of briefing the operation 
all the way up to the central government level, seeking 
Presidential endorsement and leadership and then his personal 
involvement in the shuras and his guidance to his ministers, 
the focusing of the ministries on the local level, it was an 
important lesson and has led to some of the advances that we've 
made down there.
    Mr. Ruggiero. I think the primary lesson learned on the 
governance side again recognizes the limiting factor of Afghan 
capacity. There were plans in place early on to try to get a 
lot of Afghan Government capacity into Marjah very quickly. 
That did not happen as fast as we would like.
    So we've worked with Minister Popal of the Subnational 
Governance Ministry basically and we're trying to--for 
Kandahar, we're going to try to prioritize which positions we 
want to see filled at the district level first and we can get 
to the larger--it's called the Tashkil which is a manning 
document. Later on, as resources permit, but we need to 
prioritize to get those key ministry officials down to the 
district level as soon as possible.
    Senator Shaheen. Thank you.
    Mr. Sedney. If I could just add one other lesson learned. 
About 3 weeks ago, the three of us were in Kabul at a meeting 
led by Ambassador Holbrooke and General Petraeus reviewing the 
progress of the civil-military operations and a number of 
Afghan ministers were there and talking about the Marjah 
operation.
    Several of the ministers pointed out that one of the 
lessons they had learned is to question their own assumptions, 
that their assumptions about what they expected when Marjah 
happened turned out not to be right, and that they were going 
to learn in the future to question their assumptions and reach 
out more to the people at the local level rather than relying 
on people at intermediate levels, and I thought that was a very 
important lesson that the Afghan Government officials had 
learned.
    Senator Shaheen. That's great. Thank you, all.
    The Chairman. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. Thank you, 
General Nicholson and Mr. Ruggiero, for being here today and, 
Mr. Chairman, thank you for continuing your efforts to ensure 
that Congress and the American people are fully aware of the 
status of our efforts in Afghanistan.
    It's too early to judge the long-term effects of the 
offensive in Marjah but already there are reports that the 
Taliban are once again asserting their presence there. I 
question how well we can ``clear'' areas when Taliban fighters 
meld into local populous and ``hold'' them in a sustainable 
manner when regular police forces are perceived to be either 
corrupt or unreliable.
    Moreover, the Afghan Government's rampant corruption and 
the disaffection among the population in the South are not 
going to be fixed by the arrival of an additional 30,000 
American troops in Afghanistan.
    So obviously I think we have to ask whether a massive open-
ended military presence that has already increased United 
States and Afghan civilian casualties and cost tens of billions 
of dollars makes sense. Our troops will no doubt do everything 
that we
ask of them and will be successful tactically, but the question 
is whether the strategy our government has adopted is actually 
going to make our country safer. I am not convinced that that's 
the case.
    The time has come, in my view, to set a timetable for 
responsibly drawing down our troops so we can focus on pursuing 
a sustainable global strategy to combat al-Qaeda.
    I'll turn to some questions. General Nicholson, Secretary 
Clinton has testified that we anticipate that it will take 3 to 
5 years to transition control to Afghan security forces, but 
press reports on Marjah raised questions about Afghan Army 
combat performance, readiness, and discipline.
    By your estimate, how many years will it take to completely 
transfer control to Afghan security forces in RC-South if we 
continue to pursue the current strategy?
    General Nicholson. Well, sir, I'd ask that we use the 
process that Secretary Gates and with the President have 
devised to assess this. Our goal right now is to introduce the 
forces, execute the campaign.
    We're about halfway through the introduction of those 
forces. In December of this year to assess where we are on the 
strategy and then from there make those kinds of judgments that 
you're asking for.
    Senator Feingold. But would you agree with Secretary 
Clinton's assessment of 3 to 5 years?
    General Nicholson. Sir, I mean, this will take a period of 
time. For example, President Karzai at the London Conference 
said he would like to take over security responsibilities for 
the entire country within a 5-year framework. We support that 
goal.
    Our already approved and funded growth of the Afghan 
National Security Forces carries us through to the end of 2011. 
So clearly there will be an effort there to continue to grow 
those forces. So in that window of 3 to 5 years that she talked 
about is the timeframe that we're talking about in terms of the 
growth of their security forces and the ability of them to take 
over the fight.
    Senator Feingold. Thank you, General. Mr. Ruggiero and 
General Nicholson, the Christian Science Monitor reported that 
one of the factors that enabled the Taliban to take hold in 
Marjah was the abusive rule of warlords who are now apparently 
actually seeking a place in the new government as well, 
including by lobbying in Kabul.
    I'm concerned, as others are, that President Karzai is not 
serious about working to address the warlordism that has 
alienated the population in the south. His recent support for 
an amnesty law that gives immunity from prosecution to warlords 
would seem to, you know, sort of cast that into further doubt.
    Do you share those concerns, Mr. Ruggiero?
    Mr. Ruggiero. In terms of the Marjah operation, I think the 
concern you express is accurate, that in fact there was a local 
police force that was in Marjah prior to 2008 that had 
conducted itself in a manner, and it was linked to local power 
brokers, that did open the door for the Taliban to go back into 
Marjah and take control. In fact, they did do that in 2008.
    In the planning efforts again to secure Marjah, we were 
very clear to work with the central government, to work with 
the official representation of the government, so with the 
ministry levels in Kabul, with Governor Mangal in Helmand 
itself and with the district government officials and the local 
A&A officials.
    Again, recognizing that the police issue was a problem in 
Marjah, we did not go back to the police officials that had 
existed prior to the Taliban taking over in 2008. A different 
force was brought in, Afghan National Civil Order Police. This 
was to address that linkage between the police force that had 
been there and local power brokers.
    Senator Feingold. General, do you share these concerns?
    General Nicholson. Yes, sir. As Frank mentioned, the police 
in Marjah were predatory, not protecting the population, and 
this was one of the principal complaints of the people, and to 
the extent that that's a reflection of some nongovernmental 
actor or governmental actor who is acting in a way that's not 
consistent with support for the people, they were present in 
Marjah.
    But as Mr. Ruggiero pointed out, one of our first acts upon 
securing Marjah was to remove that police force and replace 
them with the more credible and capable Afghan National Civil 
Order Police and then begin a process of recruiting and 
training a new police force and that in fact is what's 
occurring now.
    Senator Feingold. General and Mr. Ruggiero, have we seen 
any interest in Taliban reintegration as a result of Operation 
Moshtarak?
    Mr. Ruggiero. Well, reintegration in Afghanistan is an 
Afghan-led process and reintegration is designed to go after 
those low-level and mid-level fighters that are willing to come 
off the battlefield.
    We had been waiting for the Afghan Government to put out 
its interim guidance which President Karzai authorized in the 
past week or so. We have not seen large numbers of integration 
of the mid-fighter level. I think the security situation would 
be key first. I mean, people are making a decision, do I think 
the government's going to win here, do I think the Taliban's 
going to win?
    So in Marjah, I don't think we've hit that tipping point 
from the security perspective that you'd see a large number of 
reintegrees, but what you do see, and this is a theme that you 
see throughout the areas we've cleared since July of last year, 
is that when we come in with the military and due cash for work 
programs, for example, there's an unemployment rate in southern 
Afghanistan that's 60-some percent and oftentimes the Taliban 
will recruit simply on an economic basis to get people to come 
out, plant an idea, take a couple shots with an AK-47.
    You will see those people working on these programs that 
the U.S. Agency for International Development puts out so that 
those low-level fighters almost do an instantaneous 
reintegration where they now have employment opportunities, 
they take advantage of the programs we are offering.
    What we haven't seen yet, though, is that mid-level 
commander coming in with maybe 50 or 60 fighters in the Marjah 
area. I think you'll see that, though, when the security 
situation improves and now that we have the Afghan guidance on 
it.
    Senator Feingold. Thanks to both of you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I certainly 
appreciate our witnesses being here today.
    Let me talk a little bit about the poppy and drug trade. 
According to the United Nations, no country in the world has 
ever produced narcotics at the deadly rate that's been done in 
Afghanistan and I understand the strategies about trying to 
have substitute crops and the eradication program not being 
successful.
    Can you just share with us the impact of the Marjah 
campaign on the drug production in that region and whether we 
have had success in substituting crops, whether the bottom line 
production of poppy crop has been reduced and what the 
prognosis is for the future?
    General Nicholson. Yes, sir. And the overall approach, as 
you highlighted, was a shift from centralized eradication to an 
effort focused on interdiction of the drug trafficking 
organizations and we estimate there's about half a dozen of 
these major drug trafficking organizations in southern 
Afghanistan and then in secured areas assisting the farmers to 
transition from poppy to licit agriculture.
    So this is the fundamental approach. That approach is 
reinforced and I should mention the governor in southern 
Afghanistan or in Helmand province, Governor Mangal, has a 
program, a counternarcotics program, completely led by his 
government, called the Food Zone Program, which involves an 
information component and an outreach to the population on the 
desire of having licit agricultural economy vice a poppy-based 
one.
    It invokes religious leaders to discuss about opium vis-a-
vis Islam and it involves a component of eradication. So 
there's still eradication led by the Afghan Government but only 
when--after he's made the offer to citizens to transition and 
he offers them assistance with weed, seed, and agricultural 
assistance. If they still choose to plant poppy in spite of 
that offer, then he goes in and conducts governor-led 
eradication. So there's a multidimensional effort ongoing in 
these areas.
    The significance of our operations in southern Afghanistan 
this year, as you point out, sir, is that southern Afghanistan 
produces the majority of the opium in the country. The country 
produces over 90 percent of the opium in the world.
    The area of Central Helmand is one of the most densely 
cultivated areas in Afghanistan and it's primarily producing 
opium right now. So as we secure areas, we have found these 
programs that the governor is leading are more successful in 
secured areas. In insecure areas, they have little success.
    So as we extend security to the population of Central 
Helmand, we anticipate greater success in terms of the effects 
of these programs.
    As to the specific success we've seen, Frank, I know you've 
got some recent observations on that.
    Mr. Ruggiero. I'll just give a quick anecdote on a 
conversation I had in Marjah about 15 days after the military 
operations had kicked off.
    President Karzai had come down with General McChrystal to 
do a shura and they did it in a local mosque and I couldn't 
attend because it was in the mosque. So I sat outside with a 
bunch of--maybe about 20 or 30 farmers who were anywhere from 
the age of 20 to 40 and that was the only--the question they 
had on their mind was what are you going to do about our poppy 
crop. A lot of them will plant many types of crops, but they'll 
plant a little bit of poppy so they have a cash crop available 
to them, and I think the general theme was don't come in and 
eradicate the poppy because you'll lose the support of the 
people very quickly.
    I think that's what we've learned from a more broader 
perspective, that the eradication effort from a 
counterinsurgency point of view was not successful. So we have 
implemented a series of programs on interdiction, alternative 
livelihoods that I think, as General Nicholson said, the 
general theory is that in unsecured areas equal more poppy 
cultivation, the more secure an area becomes, the less poppy 
cultivation you have because the government is there; coalition 
forces are there.
    Senator Cardin. I agree with what you just said, and I 
imagine that the circumstances are better than they would 
otherwise been absent our efforts.
    It would be helpful if we could quantitate that somehow. 
One of the things that we've been asking for in Congress is a 
way to judge progress and to the extent that you can document 
rather than just give individual stories, I think it would be 
helpful to us.
    None of us expect overnight we're going to change or 
eliminate the illegal drugs coming out of Afghanistan, but we 
have to make progress and if you can demonstrate that, I think 
that would be helpful.
    The followup question is one with this local governor's 
actions. It only can succeed if they eliminate corruption which 
is reported pretty widespread among government officials in 
Afghanistan.
    Now we can talk about the centralized authority and the 
corruption problems within the central government. I'd like to 
get to the local community, particularly in the Helmand area, 
as to whether you have reason to believe that the programs that 
are being implemented locally with the local population are 
credible or whether they are just taking funds that otherwise 
could be used for the economic progress in that region and 
funding their corrupt activities.
    Mr. Ruggiero. I think you are correct in pointing out that 
corruption is a major issue across southern Afghanistan and 
Afghanistan generally. I think President Karzai has signed a 
draft--he's working on a draft executive order for an 
anticorruption decree that he released several months ago. 
We're doing a lot of work in Kabul on building the capability 
of the central government to address corruption issues. I can 
go into the specifics on those, if you like.
    From the Regional-South perspective, over the past year we 
have started to see some activity in prosecuting corrupt 
actors. There's actually the head of the Afghan Border Police 
in Kandahar. If you control the roads in southern Afghanistan 
or the border crossing points, that's a way to make money, as 
you can imagine. He was arrested and he was just prosecuted, 
given a 10-year--an 8-year sentence and several hundred 
thousand dollar fine. So we are seeing some progress, nascent 
though it is, on the government prosecuting corruption cases.
    Senator Cardin. And I just--again, we're looking for 
progress and the way to start breaking corruption is to work 
with the local officials and to reward the community based upon 
progress being made and not being just taken for personal gain 
by a few, and it would be helpful--I know the efforts you're 
making with Mr. Karzai and we certainly are watching that very 
closely, and I would, not today, but appreciate the specific 
information that you're referring to, but it would also be 
helpful to know the efforts we're making at the local 
government levels.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin. Mr. Sedney, what 
has the civilian leadership of the Defense Department gleaned 
from this process thus far? Are you folks satisfied with the 
resourcing as well as the partnership on the civilian side? If 
not, what do we need to do?
    Mr. Sedney. I'd have to say at this point in terms of the 
cooperation, as laid out by Mr. Ruggiero and the cooperation 
both with the Afghan civilians and with the United States and 
international civilians, the Marjah operation has been 
exemplary in terms of that level of cooperation, starting in 
the planning period and continuing through now, that as soon as 
security was put in place, Frank was able to deploy civilians 
with our Marines and they became active right away.
    USAID was able to come out and put programs into place 
again immediately after security was put in place and that's 
still ongoing right now. So we are learning lessons on how to 
do it well, but in terms of the level of cooperation, I'd say 
it's been exemplary.
    You mentioned in your statement that this was the biggest 
military operation since 2001. I would add to that it's the 
biggest civil-military operation ever and that civil-military 
part of it is something that we will need to build on.
    That said, we also are learning----
    The Chairman. Is there any dramatic missteps that need to 
be cured or gaps that you think need to be filled as we, sort 
of now, look toward Kandahar and elsewhere?
    Mr. Sedney. I think the biggest area, and we knew this 
going in, this would be the biggest area of problem and Mr. 
Ruggiero mentioned it earlier, is the capacity of Afghan 
Government civilians to come in and carry out the local 
governance effort.
    The number of those civilians, and General Nicholson 
mentioned this, too, who are trained, capable, and willing to 
go to those areas does not match at all the demand. We are 
working already with the Afghan Government. Director General 
Popal that Mr. Ruggiero mentioned has a training program that 
they're starting up to have for an accelerated training of 
local government officials but that is a serious area of 
concern for success in Marjah, success in Kandahar, success 
anywhere in Afghanistan, is Afghan civilian capacity.
    The Chairman. Mr. Ruggiero, I know I promoted you earlier 
to Ambassador. I hope you can survive that down at the 
Department.
    Mr. Ruggiero. I appreciated that. Thank you.
    The Chairman. I was just trying to help you out with 
Holbrooke when you go in there, you know, but maybe it has the 
opposite effect. I'll have to reexamine that one.
    There are six key districts in Central Helmand River Valley 
that matter. You understand that. Marjah and Nadali sort of 
represented the last two that we needed to move in on, but we 
did--Garmsir and Naway, I guess, previously and that's had some 
time now to take hold.
    When I was there, we did a shura with a lot of local 
leaders and I was struck by their anxiety over the need for 
just basics, you know: ``We want water.'' ``We want, you know, 
crops, different irrigation, different things like that.''
    Where do you think we are now with that? If we went back 
there and did an analysis, another shura, would they stand up 
and say the same thing or are they in a better place?
    Mr. Ruggiero. I think in places like Naway, Garmsir, 
Argindab, where we have been for roughly, at least in Naway and 
Argindab, about a year, Garmsir a little longer, I think if you 
ask the people are you in a better position vis-a-vis the 
government delivering some very basic rudimentary services, I 
think their answer would be ``Yes,'' that they have received 
more service delivery from their local government.
    A lot of that is based on the capability that we bring to 
the table, working at the district level. So that raises the 
question of transition. How do you transition out of this? But 
I think at this point they would probably say that they are--
those basic needs are being met better than they were a year 
ago.
    The Chairman. Are you doing that kind of analysis? I mean, 
are we in fact measuring that? Isn't that pretty important to 
keep track of?
    Mr. Ruggiero. It is. The way we have tried to----
    The Chairman. Do we do that systematically?
    Mr. Ruggiero. The way we've tried to do it--we do do it 
systematically. The way we specifically try to do it in RC-
South is we try to define what success at the district level 
looks like and we do that in terms of when we want to 
transition, what would be the hallmark of how we transition the 
governance side of the equation at the district level.
    So you would need a district governor that works, that 
lives in the district center, refurbished district center. 
You'd need a local representative shura that represents the 
vast majority of the people, villages in that district. You 
would need at least a handful of key ministry capabilities that 
would be in the district. You'd need an effective chief of 
police, district level chief of police. You would need an 
effective NDS, which is basically the Afghan National 
Intelligence Service.
    When you have that capability, which is easily 
quantifiable, in the district, I think you have some basic 
level of--that would be what success looks like, I think, for 
us on the governance side.
    The Chairman. Now, I mentioned earlier in my opening 
comments this issue of the refugees and obviously I think 
Governor Mangal was sort of put in charge of handling that with 
respect to Marjah and Nadali.
    What--which in effect meant there wasn't a lot provided for 
them. I mean, I think that's the judgment people have come to. 
There are reports that the situation in Kandahar is becoming 
increasingly dangerous for civilians, and that the Taliban and 
criminal groups are assassinating and beating people publicly 
and basically trying to intimidate the population.
    I also understand that our troops, you know, the NATO and 
ISAF troop presence is really in part being blamed for these 
attacks on civilians at this point in time and people are 
somewhat angry still about the perceived support of either our 
country or our troops, et cetera, for Hamad Karzai, et cetera.
    Can you speak to his standing, No. 1, and to the civilian 
intimidation levels and sort of status of Kandahar without 
going into any aspects of our operations but just what is it 
today? What are we looking at?
    Mr. Ruggiero. The Taliban has unleashed a series--an 
assassination campaign inside of Kandahar City and these are 
literally two-motorcycle/two-men teams that go around the city 
to attempt--their objective is to assassinate Afghan Government 
officials.
    I think the Taliban understands what our strategy is. Our 
strategy is to build the governance capacity of the Afghan 
Government and for it to be able to deliver some basic 
services.
    So what they do is they target those Afghan officials that 
we're trying to bolster and they also target our implementing 
partners on the USAID side who really are the entity that help 
the government deliver services. So these assassination squads, 
there's bombings aimed at our implementing partners, they 
really are going after what they understand to be the key to 
our strategy and the key to the strategy again is to build the 
government up so that it can provide basic services in this 
fight between the insurgents and the government.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. According to recent 
ISAF figures, there are now estimated to be 113,000 trained 
Afghan National Army soldiers and 109,000 persons trained for 
service in the Afghan National Police.
    What is your estimate of how many of those police and 
soldiers who have been trained still remain? The reason I ask 
is that there were fragmentary reports of training, 
particularly in the police area. Many of the persons being 
trained are illiterate and have real background difficulties. 
Additionally, many seem to have disappeared or left the ANP, 
and I'm just curious as to how stable those figures are and 
whether they are accurate.
    General Nicholson. Yes, sir. And at the SIBMIL Rock Drill 
that Mr. Sedney mentioned, we had discussion on this issue and 
Minister Atmar's comments regarding the police were 
illuminating.
    As you mentioned in your remarks, sir--the Army--those are 
trained soldiers. However, the police do not--are not all 
trained yet. In fact, up to upward of 70 percent have not been 
trained. Minister Atmar expressed his concerns as he and 
Minister Wortek described their situation to General Petraeus 
and Ambassador Holbrooke.
    Minister Atmar talked about the model in the police is not 
recruit, train, and deploy; rather, the soldiers--the police 
officers are already deployed but in many cases they don't have 
adequate training and equipping.
    So it is a case of going out to that 70 percent of his 
force, bringing them back in for vetting, drug testing, some 
sort of background check to the extent that that's possible, 
and then training them for 8 weeks and then redeploying them 
out now as a trained police officer with a partnered unit and 
with a mentorship team, and this basic critical path of 
bringing in these police that are currently untrained, training 
them and redeploying them he views, and we agree, as essential 
to getting this capability up and reducing the attrition that 
you're referring to.
    Another--two other data points I'd mention, sir. In 
December we saw some increases in pay offered and we've seen 
some very positive response in terms of retention and 
enlistment. In fact, we've exceeded most of our enlistment 
goals since these pay incentives have been introduced.
    And the second thing, I just received a note from General 
Caldwell, the commander of our NATO Training Mission-
Afghanistan, today and the pay-to-bank system where police 
officers, for example, have visibility of their pay being 
deposited and now they're doing an experimental program where 
this information is conveyed to them via text message on a cell 
phone and it enables them to have a greater degree of control 
over their pay.
    He and his Afghan partners believe it has great potential 
to then reinforce--reduce absenteeism which in many cases is a 
result of a soldier must take his pay to his family somewhere 
else in the country and then return to duty.
    The final piece on retention I'd mention, we've referred to 
the Afghan National Civil Order Police a couple of times as 
being the most effective and credible Afghan Police Force. They 
receive about a 16-week training program, highly trained and 
very effective, but we've had a high attrition in that force 
and we're addressing that through a number of ways.
    One is the pay incentives I referred to. Another is an 
operational rotational cycle. That means that they're not 
continuously deployed for their entire enlistment. So they can 
count on a period of retraining, rest, and then being 
redeployed.
    So this program, very comprehensive, is just getting 
underway and we view this as something that's going to reduce 
the attrition that we're seeing in our highest-quality police 
forces.
    Senator Lugar. Yes, sir.
    Mr. Sedney. Senator, if I can add three points. First, 
Minister Atmar, with our cooperation, has put in place a 
program called the Personal Asset Inventory which has gone out 
and done biometrics, interviews, inventory of assets in order 
to see how much money people have, and it obviously has a 
corruption angle to it, as well.
    But that combination of factors, they have as of the end of 
April, they had reached 90,000 of the 99,000 police who are on 
the rolls. That doesn't mean that those police are always there 
working every day, but it does mean that at least on one day 
they showed up and they got biometric information. We had the 
background information that will allow us to continue to 
monitor them.
    Second, on the training and the performance of the police, 
we have trained many police and there are many police actually 
who are out there working effectively in Afghanistan as well as 
the corrupt ones that we hear so much about, and Minister Atmar 
was very articulate on that, and the police also suffer a 
higher casualty rate than the Afghan National Army. The 
casualty rate for the police, the attacks on the police are 
very high.
    But going back to the performance and I'll follow up on the 
answer I gave to Senator Kerry in terms of challenges, in the 
end it doesn't matter how well we train the police, it doesn't 
matter how well we mentor, and it doesn't matter how well we 
partner. If you put police out into a system where rule of law 
and governance are corrupt, where there's a corrupt judge, a 
corrupt prosecutor, a corrupt corrections system, and a corrupt 
system around them, those police will become corrupt.
    So we are working very hard to train the police, but it's a 
very difficult problem because it's not a one system. It's a 
system of systems that makes the police work.
    And then, finally, one additional point on the ANCOP. While 
they have performed very well and are the leading edge of 
Afghan police, one contributing reason to that turnover that 
General Nicholson mentioned is they had never been partnered 
before and in the last month we have begun partnering the 
Afghan Civil Order Police with United States Special Forces and 
we believe that will also provide additional leadership and 
incentive to help reduce that turnover rate.
    Senator Lugar. Let me just comment that at least we're told 
that eventually we want to get to 170,000 Afghan National Army 
soldiers and 130,000 police officers.
    Both of you have given excellent testimony as to the 
difficulties of this training and you have said you now have a 
good deal of information on 900,000 police officers through the 
Personal Asset Inventory Program. Maybe you are able to keep 
track of those.
    But I'm wondering, first of all, the nature of the 
timeframe in which we get to somewhere in the range of the 
170,000 and 130,000. This may be a more difficult question 
beyond any of our competence to answer now. But, this question 
will be increasingly asked by the American public.
    Furthermore, I'm curious as to the costs we have and will 
continue to incur as we pursue these goals. How much of that 
cost can be borne by the Afghan Government in subsequent years?
    When we had this discussion with regard to Iraq, it was 
always the promise of oil and/or other revenues covering the 
costs of such operations if things could be pulled together. 
But in Afghanistan, there is not that kind of promise. As we 
have our timetables for potential withdrawal of American 
forces, the idea is clearly that in the event of the execution 
of these timetables there would be an Afghan Army and police 
officers to provide the civil government and the provincial 
governments with the sustained support necessary to ensure 
stability--but with what wherewithal?
    What is the current level of dedicated funds, and how long 
can the American people sustain this level of funding, in your 
estimate, after our troops have left?
    Mr. Sedney. Senator, that's an excellent question and one 
that we pay a lot of attention to.
    First of all, you're right. The Afghan National Army and 
Afghan National Police currently are--the cost of those are 
borne almost exclusively by the international community, 
primarily by the United States, although a number of other 
nations contribute.
    The Afghan contribution to their own security is in Afghan 
terms quite high. Of the approximately, I believe, $1.3 billion 
in revenue of the Afghan National Government last year, they 
spent about 35 percent of that, actually closer to 40 percent 
of that, on supporting their own Afghan security forces. So 40 
percent of their national revenue went to that.
    However, that's well short of what it will cost to maintain 
the Army and the police forces that we have now and that we're 
building toward. So clearly there will be a need extending into 
the future for Afghanistan to receive continued support for the 
sustainment of those forces.
    But I would point out that if you compare the costs of 
Afghan security forces to the cost of United States forces, any 
of our international partners, it is much, much less. So from 
that standpoint, having Afghan Security Forces in charge of 
security for their own country makes sense not just from a 
political and social point of view but also from an economic 
point of view.
    Finally, I'd point out that Afghan Government revenues in 
the last year have gone up by 20 percent. There is a lot of 
economic potential in Afghanistan. It doesn't have the oil 
wealth in Iraq, but from minerals to manufacturing, there are 
large areas of economic hope for Afghanistan but that hope can 
only be enabled if we put the security into place that enables 
the economy to flourish.
    Senator Lugar. I appreciate that response. I'm hopeful that 
our government will begin to work with the Afghan Government on 
what would be called a business plan because, as you pointed 
out, there's economic growth occurring there for various 
reasons. Hopefully, we can see more of that. Otherwise I see a 
scenario down the trail where after the arduous training 
exercises and grassroots efforts you've described, the 
wherewithal to continue to pay for all of this will simply not 
be there. Then, at that point, we have a different set of 
problems.
    Now we might rationalize that we're going to have to have 
security forces in Afghanistan perpetually. If the Afghans are 
not going to pay for it, we will have to, and it's better to 
pay for the use of Afghan forces than ours. However, whether 
that argument can be sustained if we were to have this hearing 
5 years from now is a problematic issue. This is why we better, 
even as we're going through the arduous training business, 
begin thinking through the business plan of how this is to be 
sustained.
    I appreciate the thinking you've already given to this, but 
I would encourage a really great deal more.
    Thank you very much.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. I have a question 
I'd like all three of you to comment on, if you would, briefly.
    You know, I've never had any doubt that we could accomplish 
what we wanted to accomplish there; that is, with our 
objectives of standing up an Army, standing up a government, 
standing up a police, but when one travels over there and you 
talk to people, they tell you the right things, you listen to 
what they say, and it sounds good, but you get the queasy 
feeling that maybe they either aren't able to sustain it or 
they don't really have the same desire to sustain it that we as 
Americans do and setting it up is one thing. Sustainability is 
something else and I had no doubt that we'd get to where we 
wanted to be as far as standing it up, but I got to tell you, 
you come away from that with a really queasy feeling about 
their ability.
    So I'd like maybe the three of you to comment on that.
    Mr. Ruggiero. I would just point to--I think your points 
are well taken. The question of sustainability and who do you 
transition to is the primary question you have to be able to 
answer over the next couple years.
    I would point to the most recent operations, Marjah and 
what we're going to do in Kandahar. We've approached this in 
kind of a different way to make sure that this is an Afghan 
Government effort. This is the Afghan Government that is 
extending its authority over these areas that are either 
ungoverned as in Marjah or governed to a pretty negative degree 
where you have a Taliban infiltration presence.
    The planning that's been done for a lot of these operations 
has been done in partnership with the Afghan Government. So I 
think we would take or I certainly take some comfort in the 
fact that we seem to have turned a corner in terms of how we do 
these operations and that these have to be the Afghan 
Government extending its authority with the assistance of the 
coalition.
    I think in the past you had operations that weren't 
necessarily like that. I don't know if my colleagues want to 
comment.
    General Nicholson. Sir, like Frank, your points are well 
taken and this will be an Afghan solution and certainly at the 
end of the day, they are the ones that have to restore some 
equilibrium to their society and it's not insignificant to 
consider, you know, they're on their fifth form of government 
in 30 years. They've had 30 years of war. The normal social 
governance mechanisms that have been resilient for centuries 
have been badly fractured by assassinations, by war, by 
criminal networks, by systems of patronage.
    So this is, in many ways, a traumatized situation and so 
helping them gain the time to restore a balance is important. 
I'm encouraged personally, having spent parts of each of the 
last 4 years in Afghanistan, that there are enough Afghans who 
really want this to succeed that they can in fact arrive at a 
stable solution.
    Specifically, we've talked a little bit about Governor 
Mangal here today, has been governor in three different 
provinces in Afghanistan. In each of those provinces he's 
brought systems and capabilities that weren't there before and 
restored the credibility of the government to some extent.
    We see tribes and this perhaps is one of the dangers of 
overfocusing on certain of the more difficult areas, like 
Marjah, and seeing all of Afghanistan through the lens of 
Marjah as opposed to looking at some of the other areas and the 
one I'd mention would be Nangarhar province, in the east, a 
Pashtun area, certainly a problematic area. It was the last 
place that some of the al-Qaeda elements in Afghanistan were.
    The province itself is enjoying tremendous prosperity 
because of increased trade with Pakistan through the Torcum Gab 
Kyber Pass area. Recently, the Shinwari Tribe, one of the 
largest tribes, I believe the largest tribe in Nangarhar, made 
a public declaration against the Taliban but also one that 
asserted they wanted to see less government corruption.
    So this tribal declaration was very interesting because it 
is not just about an individual, like a qualified governor or a 
qualified military commander. It's about an entire tribe of 
significance taking a stand against the enemy but also 
identifying what they expect out of their own government. So it 
is data points like those that have given me the belief that 
the Afghans can do this and certainly I've had plenty of 
moments, as you have experienced, sir, where you wonder how a 
particular situation is going to turn out, no question about 
it.
    Helping them and giving them the space and time to work 
through this and then assistance in key areas is critical, 
though the one comment I'd make, and Senator Kerry and I were 
discussing Greg Mortonson's work prior to the hearing, 
education is extremely important across Afghan society.
    We've had a real focus on primary education. There is a 
need for secondary, vocational, and higher education to help 
them grow the human capacity to enable them to move forward as 
a society and there's a real desire to embrace that.
    So I just wanted to mention that, but I share your 
concerns, sir, but I also have, just based on personal contacts 
with the Afghans, do believe they can do this and that they 
want to do this and that there is a critical mass of Afghans 
that really want this for their society, enough so to make this 
happen.
    Mr. Sedney. Senator, I've shared your concerns and been 
even more worried. I've been involved in our Afghan efforts 
since 2002 when I went out as the Embassy decharge and deputy 
chief of mission and have been working on Afghanistan in a 
number of capacities since then.
    Over those 8 years I have at times shared the doubts that 
you have. However, I would say today I am more optimistic than 
I've ever been about the future of Afghanistan and it goes to 
many of the factors that Mr. Ruggiero and General Nicholson 
mentioned to you, as well.
    And, first of all, it is the continued effort by Afghans 
and ranging from ministers in Kabul to governors to people at 
the national governance and districts, as well, where there are 
many areas of failure, there are also many and, I believe, 
growing areas of success and the dedication of those, and next 
week when President Karzai comes, he'll bring a number of 
ministers that I'm sure all of you have met who have been there 
for years who have dedicated their lives to moving forward and 
I believe that together with them we are.
    But even more than that, General Nicholson mentioned 
education. Eight years ago there were no girls and very few 
boys in school. Eight years later with that focus on primary 
education, when I've gone back to Afghanistan, I've talked to 
the people who are 13-14-year-olds now, who have gone through 
that education. Their vision for themselves, their hope for 
themselves is not to become Taliban extremists. They want to 
become engineers. They want to become doctors. They want to 
become lawyers.
    So we have literally millions of young people who are the 
future of Afghanistan and that is something that I find is both 
inspiring and impressive and it is a hope that I believe will 
be fulfilled with the leadership that we mentioned before, the 
assistance from the international community but, most of all, 
by the hard work of the Afghans themselves.
    Senator Risch. Thank you, Mr. Chairman, and I certainly 
hope that your optimism, all three of you, comes to fruition.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Risch.
    Senator Shaheen, do you have any more questions?
    Senator Shaheen. I do. I want to go back to a couple of 
things that have been raised by others with respect to the 
potential for reintegrating some of the Taliban.
    As we're looking at Kandahar and that as the home of 
President Karzai, the place where he probably has or one would 
think he has as much influence as anywhere in the country, is 
this an opportunity to begin to look at potential reintegration 
there and is that being discussed as part of the strategy for 
how we turn around Kandahar?
    Mr. Ruggiero. As I said earlier, Senator, I don't think you 
were in the room, I apologize for that, the reintegration 
guidance is really an Afghan-led effort and President Karzai's 
administration just cleared off on that guidance and that 
guidance will have to come down their chain of command to the 
provincial governor in Kandahar to the mayor to the district 
governors because it will really be them that will lead any 
effort on reintegration in the upcoming Kandahar operations.
    I would suspect that there will be opportunities for 
reintegration in the areas that are most kinetic at this point. 
So you have parts of Kandahar that are generally controlled by 
the Taliban, not in the city itself but in the districts that 
matter to the west of the city. So I would not be surprised to 
see some reintegration opportunities in those districts.
    Senator Shaheen. Anybody have anything to add to that?
    General Nicholson. I would just agree with Frank and would 
add that reintegration is really a part of the Afghan tradition 
and again I mentioned this while you were out of the room, 
ma'am, but when you look at the government and the army and the 
police today, you see many cases where you've got former 
mujahideen and former Communists now together in the 
government, in the same ministry, in the same military unit 
working together toward a more stable and prosperous 
Afghanistan.
    So the notion of reintegrating at the upset brothers, as 
they refer to them, is something that's very much within their 
tradition and attainable.
    Senator Shaheen. Thank you. When we were there last year 
with a group of Senators, one of the acknowledgements was the 
fact that there are a number of NATO partners in this effort 
and there are different teams in various parts of the country 
in charge of the PRTs and that their approach is not always the 
same.
    What kinds of steps have been taken to better coordinate 
the approaches and all of those PRTs and the efforts that we're 
engaging in with our NATO allies?
    Mr. Ruggiero. At the Kabul level, Ambassador Mark Sedwell 
has been appointed as the senior NATO civilian in Afghanistan. 
Mark is the former British Ambassador to Afghanistan. So his 
position, his taking that NATO position will be very helpful in 
terms of coordinating U.S.--I'm sorry--international civilian 
assistance.
    What you had happen in the south because of the large 
American inflow of civilians is that what were once a Canadian 
PRT in Kandahar, Dutch PRT in Orizkon, British PRT in Helmand, 
we have put so many American civilians in those places and then 
further down range at the district level, that those are in 
fact now international PRTs. So the level of control--control 
is probably the wrong word. The level of coordination that you 
have to meet the military and civilian objectives across the 
PRTs is far greater than it was a year ago.
    Senator Shaheen. And I certainly applaud the appointment of 
the civilian coordinator. I think that's a wonderful step 
forward and very much appreciate that.
    I want to go back to the metrics issue and measures and you 
all have talked about a number of ways that we're looking at 
determining whether success is happening on the ground.
    Do we have, I don't want to say a list, but essentially I 
guess that's what I'm asking. Is there a list of what we look 
at specifically? So for Marjah, when we said, OK, we've cleared 
the Taliban of Marjah. Are there a list of factors that we use 
to determine specifically whether there's enough security in 
place to be able to say that, and as we think about holding an 
area, again is there--are there specific measures that we look 
at and say, OK, we're now in a position to move to the next 
phase, and is that something that is shared with everybody?
    One of the things that raised this question for me was 
reading a recent Time Magazine piece about the effort to 
rebuild is at the Peer Mohammed School outside of----
    Mr. Ruggiero. Yes, it was the Joe Klein piece on Zhari.
    Senator Shaheen. Yes. I was particularly interested because 
the captain had gone to the University of New Hampshire. So I 
always look for those New Hampshire connections.
    But I think it raised the significant challenges there, but 
what wasn't clear to me is the story suggested that the 
operation was endorsed and then there was some questions about 
whether it was going to go forward and so how much is everybody 
down the chain of command aware of what those measures are and 
operating on them cooperatively?
    General Nicholson. Ma'am, one of the points, and this is 
subjective in a sense, conceptually what we're doing, of 
course, is to separate the enemy from the people in an area and 
then enable this connection to occur between the government and 
the people.
    So gauging the effectiveness of that, there's a 
subjectivity to it in certain areas. We are looking--there are 
certain metrics that we track. We're continually looking at 
them to make sure they're the right metrics and we--for 
example, there are certain metrics that are not useful in 
gauging our success.
    Let me give you an example. We will see an increase in 
violence in some areas. We introduced the 30,000 troops. We're 
going to see an increase in significant activities. So there 
will be an increase in casualties in all likelihood.
    But within that, looking at the trends, for example, on 
counter-IED work, IEDs cause the majority of our casualties. 
Looking at and tracking closely our turn-ins of IEDs and how 
many of those are being done by the civilians is an indicator 
to us of an increasing connection between the government and 
the people in that they're turning in IEDs. So this is an 
example of some of the kinds of things we try to track closely.
    We have a series of metrics that track the effectiveness of 
the Afghan security forces. We talked a little bit about 
retention, recruiting, and so forth. We're looking closely at 
those metrics that would indicate an increasing connection 
between the government. Again, those are little tougher to get. 
It's not simply about how much money we spend or however the 
survey instruments are useful and where we have a baseline and 
then can use that baseline to work against. We are doing that.
    I think that it's a work in progress, it's fair to say, at 
getting the right metrics, but we're working very hard at it 
and I know we've of late--of course, we're submitting certain 
reports to Congress, the 12/30 report, the 12/31 have been very 
important in trying to capture and convey our progress. So in 
fact, David Sedney was just on the Hill this week talking to 
staffers about the recent 12/30 report and 12/31.
    So it is something we're continually working at to get it 
right and we recognize the criticality of it and being able to 
gauge our success as we go forward.
    David, I don't know if you have anything you would like to 
add on the refinement of the metrics.
    Mr. Sedney. Well, the only thing I'd add is that there is a 
legislative requirement for metrics and the National Security 
Council has presented those and we are reviewing--the 
administration's reviewing the congressional response to that 
and we are--the administration is working broadly.
    As General Nicholson said, we also had the 12/30 report 
which we submitted to Congress last week. So there's broad 
metrics we have.
    In terms of the specific metrics for evaluating individual 
operations and any comments about the school and the Joe Klein 
article, Frank would be the one who's on the scene and would be 
able to answer any questions there.
    Thank you.
    Mr. Ruggiero. Just in terms of that article, I think I 
mentioned earlier that Zhari is a district that--again, not to 
get into the upcoming operations, but just as a statement of 
act, Zhari is a district just to the west of Kandahar City, and 
it is an area that is largely under the control of the Taliban.
    If you wanted to compare any part of the Kandahar operation 
to what happened in Marjah, it would most likely be in Zhari. 
So that captain has some real challenges out there. I've met 
with him several times and he's just got some challenges.
    Senator Shaheen. Tell him we appreciate it.
    Mr. Ruggiero. Will do.
    The Chairman. Thank you, Senator Shaheen.
    Just a couple of quick summary questions.
    Mr. Ruggiero, General, as you look at the picture now and 
you've kind of worked at this thing, what gives you the 
greatest hope, and what is the biggest hurdle? What keeps you 
awake the most and worries you?
    General Nicholson. Sir, the greatest hope in me resides in 
the individual Afghans and the tribes and groups that I've had 
the opportunity to work with over the past 4 years.
    I believe that a significant number of them--a sufficient 
number of them--want this to succeed and therefore it is 
possible. They want a better way of life for themselves and 
their children. Universally, wherever we go, whether it's a 
village in Kunar or a shura in an urban area down in Kandahar, 
you see a universal desire to improve their condition, to put 
this 30 years of war behind them.
    I think it's fair to say that they also see this as their 
last best chance in some cases to really effect those changes 
within their society. I see tremendous hope in the young people 
in Afghanistan, the explosion of cell phone usage, the desire 
for education.
    One anecdote I've used as kind of symptomatic of this is, 
as you'll recall, the tragedy in December 2008 when we had acid 
thrown in the faces of school girls by Taliban in Kandahar City 
and the reaction to that was telling. These are young women in 
Kandahar on television unveiled, pointing their fingers at the 
camera, saying you will not deny me the right to get an 
education, and while they're afraid and concerned, there's also 
a burning desire to improve their lot and to move forward for 
themselves and their society and that's what gives me the 
greatest hope.
    My greatest concerns are the corrupt practices that have 
been mentioned. It's not the enemy that concerns me as much as 
the ability of the government to connect with the people and 
the ability of the government to enhance its legitimacy to the 
point that the population of Afghanistan wants their 
governance, and again I see positive indicators there, as well.
    I've, you know, mentioned Governor Mangal, but there's many 
other great Afghan civil servants and especially in the 
military and in the police who have seen--who really at some 
degree of personal risk, be it political or even physical risk, 
are willing to step out and do the right thing.
    So again, it's those individual Afghans that I've had the 
privilege of working with and the Afghan society that I've had 
the chance to interact with that gives me the greatest hope 
that we'll move forward.
    The Chairman. Thank you, General.
    Mr. Ruggiero.
    Mr. Ruggiero. I would agree with General Nicholson. It's 
the bravery of the Afghans to take on this challenge and I'll 
just give you a story of something that happened in the past 5 
or 6 days.
    The Mayor of Kandahar, at great personal risk, we're trying 
to get him to make sure that the shuras in the city are more 
representative. So he went out to Subdistrict 6 in Kandahar 
City and he went there with the district governor of Argandab 
because this was a point in the city, a weak point where the 
Afghan Government doesn't really control it directly and there 
were Taliban had infiltrated in there and were launching 
attacks back into Argandab.
    He went out there at great personal risk and he removed the 
subdistrict governor who was there who was ineffective, put in 
place, called for a more representative shura to try to get at 
some of the causes of the reason why the Taliban had come in. 
So just an example of the great bravery. His deputy was 
assassinated 2 weeks before that. So the bravery and the 
commitment of some of the Afghans is very impressive.
    The greatest concern I think I have is the issue of 
capacity on the Afghan side. There is an American speed of 
doing things and we can go in with a battalion of Marines or a 
battalion of Army soldiers and United States civilians and we 
can have an effect in a district without a doubt. In the end, 
though, you have to--this has to be the Afghan process. This 
has to be--we have to operate at Afghan speed.
    I think that calls for patience in this effort and I know 
that that's a challenge. So I think on my side, the greatest 
concern is capacity on the Afghan side.
    The Chairman. Well, fair enough. Those are good warnings 
and good encouragements and let me just say how very much we 
appreciate and respect the work that you all are engaged in. It 
is tough work. I know it's hard to put the troops out there and 
see them take the risks they are taking and you always bear 
that burden, too, as we all do, but we are very, very 
appreciative to you and the stakes are high in many, many ways.
    So we thank you for helping us to understand a little 
better where we are and where we are going and we will continue 
to engage with you as we go forward.
    Senator Lugar, do you have any additional remarks?
    Senator Lugar. Just confirm we all feel thanks and we 
appreciate your testimony.
    The Chairman. On that note, gentlemen, we'll let you get 
back to work, a different kind of work.
    Thank you very much. We stand adjourned. Thank you.
    [Whereupon the hearing was adjourned at 11:33 a.m.]

              Additional Material Submitted for the Record


Responses of BG John Nicholson to Questions Submitted for the Record by 
                      Senator Robert P. Casey, Jr.

    Question. A critical component of General McChrystal's strategy is 
to mitigate the Taliban's ability to influence the Afghan population. 
The initial phases of counterinsurgency operations in Marjah were 
designed to separate the Taliban from the local populous and facilitate 
the legitimate government. According to recent news reports, however, 
young men in Afghan villages increasingly are supporting the Taliban. 
With nearly 50 percent of the male population between the ages of 15 
and 29, this could provide the Taliban ample fighters for the 
insurgency.

  <bullet> To what extent has the Taliban's ability to control and 
        recruit from the local population been reduced or eliminated?

    Answer. One of the major contributors to the insurgency is a basic 
lack of options and opportunities afforded to the population, 
specifically to young males in the age group of 15-29. Coalition forces 
continue to get at this issue by working on a four-pronged approach 
that includes ensuring a safe and secure environment, bringing back 
basic government institutions and functions, providing and supporting 
basic services, and working to develop economic opportunities. Through 
taking this holistic approach, jobs and opportunities have opened up in 
both the government and commercial sectors; providing more 
opportunities and options to those who otherwise would not have any.
    In Marjah specifically, four major bazaars and over 100 new shops 
have opened up, the District Governors have taken a leading role, the 
councils are now functioning, students have been returning to schools, 
many clinics have reopened with two new ones being built, all within 
the timeframe between 1 February 2010 and 1 June 2010. As improvements 
along all four areas continue to increase, so will opportunities for 
the youth of Afghanistan and alternatives, such as working with the 
insurgency, will become much less attractive.

    Question. A recent report by the International Council on Security 
and Development on Operation Moshtarak in Marjah reveals some 
disheartening information regarding its perception by Afghans. 
According to the report, 61 percent of those interviewed feel more 
negative about NATO forces than before the military offensive was 
conducted. According to that survey, the operation does not seem to be 
successful at winning the hearts and minds of the local Afghans.

  <bullet> Is this an accurate account of the current feelings of the 
        local population toward coalition forces?
  <bullet> Does this also mean that we are failing to meet a 
        fundamental tenet of the new strategy?

    Answer. The survey done by the International Council on Security 
and Development (ICOS) was a telling survey, but only represented a 
very small contingent of the population within the Helmand and Kandahar 
provinces. From Helmand province alone, only 314 Afghan men were 
questioned in the survey. This does not make the report invalid, but it 
does bring to light that it is only a microcosm of the overall 
attitudes and perceptions in the area.
    General McChrystal briefed in his 1 June report that during a 
period of increased operational tempo, there would be an increase in 
the amount of violence before the government and Afghan confidence 
begin to increase and violence began to drop again. This survey was 
taken during a period of that increased level of violence and likely 
was reflective of the populations' attitudes as a result of that. Now 
that the security portion of the operation has begun to subside and the 
civil and strategic process is being made, those perceptions would 
likely be different if polled again today.

    Question. According to the International Council on Security and 
Development survey, 59 percent of those interviewed believed the 
Taliban will return to Marjah after the Operation, which would be 
devastating to women's rights in the region.

  <bullet> How do women in Marjah perceive Operation Moshtarak?

    Answer. Using the strategy of ``Clear, Hold, and Build,'' ISAF is 
ensuring that once an area is secure, there is little opportunity for a 
reemergence of the insurgency. Marjah is currently in the Hold/Build 
phase of the operation, and although some insurgent attacks still 
occur, ISAF has been effective in clearing the insurgent threats. A 
significant Taliban return to the area is unlikely.
    Women's rights in Afghanistan remain a key issue and a top priority 
of ISAF and the administration. Secretary of State, recently 
reemphasized this on her recent trip to Kabul when she said, ``I have 
consistently raised with all levels of the Afghan Government, with 
everyone else from the EU to ISAF and the U.N., the absolute necessity 
of our standing firmly together in our demands that women not be 
marginalized."
    One of the ways the military is working to better connect with the 
women of the Afghan population is with the new concept of the Female 
Engagement Teams (FET). The Marines have been using FETs in Helmand 
province with some results, claiming that local women are more likely 
to talk about some of the real issues in the area than the men are, 
once that trust is gained.

    Question. A new police force was unveiled during the Marjah 
operations, the Afghan National Civil Order Police (ANCOP). This 
security force, as with the other forces, faces a strong test as to 
whether they can maintain law and order as well as reduce corruption 
and extortion. Historically, corruption and extortion are two of the 
biggest complaints lodged by the local population.

  <bullet> How have the Afghan National Police forces performed their 
        security functions and are they achieving the desired results?

    Answer. The ANCOP are a proven national police force that have been 
in existence for more than 5 years. The ANCOP force was modeled as a 
gendarmerie-type of national police intended to operate anywhere within 
Afghanistan. They are the most respected segment of the Afghan National 
Police (ANP) in Afghanistan. Their superior reputation is based on more 
stringent selection criteria, additional quality training they receive, 
and proven performance.
    There are currently 5,197 assigned ANCOP with 1,586 in training. As 
a nationally deployable police force they are used in the most 
challenging environments to support priority missions. They do suffer a 
high attrition rate in large part due to private security companies 
(PSCs) luring them away with substantially greater offers of financial 
remuneration. In the last 3 months, the ANCOP have had attrition rates 
of 5.2 percent, 4.07 percent, and 2.26 percent. These rates are 
decreasing however as NTM-A and the IJC in conjunction with the Afghan 
Ministry of Interior (MOI) are implementing quality-of-life 
initiatives.
    The ANP in general and the ANCOP in particular, have made great 
strides in maintaining law and order in areas where they receive 
mentoring and sufficient support. There is already evidence that the 
new MOI accession model of recruit, train, and assign has paid 
dividends toward development of a more professional Afghan police 
force. Additionally, a renewed focus on police development, coupled 
with an infusion of professional police trainers from NATO and non-NATO 
contributors, continues to show progress in all areas of Afghan police 
development.

    Question. As operations are expanding in Afghanistan, we are 
continually reminded of the proliferation and lethality of improvised 
explosive devices. IEDs have become the insurgents' weapon of choice 
and are the deadliest weapon against our men and women in combat.

  <bullet> Can you please provide us with an update on what we are 
        doing to reduce insurgents' ability to manufacture, emplace, 
        and detonate these deadly weapons?

    Answer. Reducing insurgents' ability to manufacture, emplace, and 
detonate IEDs, while more effectively protecting our troops, is a top 
priority for the Department of Defense (DOD). As the statistics 
indicate, IEDs alone account for the
greatest number of U.S., coalition, and Afghan forces casualties in 
Afghanistan--approximately 60 percent.
    DOD has been pursuing a multifaceted approach to Counter-IED (C-
IED) operations, focusing efforts on improving intelligence collection, 
fielding better equipment, expanding training and integrating systems 
more coherently to address this complex threat holistically. The 
establishment of the C-IED Senior Integration Group (CSIG) by the 
Secretary of Defense in December 2009 has provided executive-level 
oversight by establishing C-IED focus areas and synchronizing DOD, 
interagency and international actions in support of these areas. The 
Joint IED Defeat Organization (JIEDDO) continues to facilitate industry 
solutions and training programs to better prepare United States and 
coalition forces deploying to Afghanistan.
    General Petraeus' counterinsurgency strategy contains the seeds for 
reaping the greatest potential gains in our C-IED fight. The central 
pillar of his strategy is protecting the population. When we reach the 
tipping point where the people of Afghanistan believe that we are 
credibly providing for their security and are there to stay, they will 
reject the Taliban, and provide us and our Afghan partners with the 
human intelligence (HUMINT) needed to effectively neutralize the IED 
threat.
    Countering the IED menace with a comprehensive approach that 
relentlessly attacks the entire IED network will remain a top priority 
for DOD and our partners.

 Response of BG John Nicholson to Question Submitted for the Record by 
                         Senator John Barrasso

    Question. Last year, the Taliban more than doubled the number of 
homemade bombs used against U.S. and NATO forces in Afghanistan. The 
number of IED attacks is expected to climb further as the surge in 
Afghanistan continues. During Operation Moshtarak, the United States 
Marine Corps unveiled the Assault Breacher Vehicles (ABV) for route 
clearance operations to ensure freedom of movement and continuity of 
operations. It is my understanding that there are less than 10 ABVs in 
theater which are in high demand.

  <bullet> Do we need more ABVs to clear minefields and potential IED 
        threats in Afghanistan?

    Answer. The Joint Staff reviews and validates all new requests for 
additional forces and equipment. The Joint Staff and Central Command 
(CENTCOM), the combatant command responsible for the Afghanistan area 
of operations, have not received any requests for additional ABVs. We 
do not assess that there is an operational requirement for additional 
ABVs at this time.
    Assault Breacher Vehicles are designed for deliberate breaching of 
complex obstacles. They best support clearing operations like the 
recent Operation Moshtarek in Central Helmand River Valley, 
Afghanistan. ABVs have limitations on use due to their size, weight, 
and mobility, making them suitable for use in specific terrain 
profiles; for example, ABVs are not well suited for urban and 
restricted terrain. Numerous other specially designed armored wheeled 
vehicles are in Afghanistan, or are on their way, that better support 
mission requirements for route clearance.

                                  <all>

</pre></body></html>
